<html>
<title> - EUROPEAN ENERGY SECURITY: U.S. INTERESTS AND COERCIVE RUSSIAN DIPLOMACY</title>
<body><pre>[Senate Hearing 115-627]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-627

               EUROPEAN ENERGY SECURITY: U.S. INTERESTS AND 
                       COERCIVE RUSSIAN DIPLOMACY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EUROPE AND 
                     REGIONAL SECURITY COOPERATION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 12, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-646 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>                                   
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




    SUBCOMMITTEE ON EUROPE AND REGIONAL SECURITY COOPERATION        

                RON JOHNSON, Chairman, Wisconsin        
JAMES E. RISCH, Idaho                CHRISTOPHER A. COONS, Delaware
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    ROBERT MENENDEZ, New Jersey
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Johnson, Hon. Ron, U.S. Senator from Wisconsin...................     1

      Pepared statement..........................................     2


Murphy, Hon. Christopher, U.S. Senator from Connecticut..........     3


Mitchell, Hon. A. Wess, Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State, Washington, DC.     4

    Prepared statement...........................................     6
    Response to An Additional Question for the Record Submitted 
      to Dr. A. Wess Mitchell by Senator James E. Risch..........    36

    Responses to Additional Questions for the Record Submitted to 
      Dr. A. Wess Mitchell by Senator Edward J. Markey...........    36


McCarrick, John E., Deputy Assistant Secretary, Bureau of Energy 
  Resources, U.S. Department of State, Washington, DC............     8

    Prepared statement...........................................    10

    Responses to Additional Questions for the Record Submitted to 
      John E. McCarrick by Senator Edward J. Markey..............    38

                                 (iii)

  

 
                       EUROPEAN ENERGY SECURITY: 
                      U.S. INTERESTS AND COERCIVE
                           RUSSIAN DIPLOMACY
                           
                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                               U.S. Senate,
                        Subcommittee on Europe and 
                      Regional Security Cooperation
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
chairman of the subcommittee, presiding.
    Present: Senators Johnson [presiding], Barrasso, Murphy, 
Markey, Menendez, and Shaheen.
    Also Present: Senator Young.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good morning.
    This hearing of the--I am going to say the full committee's 
and subcommittee's name here--the Senate Foreign Relations 
Subcommittee on Europe and Regional Security Cooperation is 
called to order.
    I want to thank our witnesses for appearing today, for 
their thoughtful testimony.
    I will ask that my written statement be just entered into 
the record because it pretty well repeats the testimony. So no 
sense going into that.
    And I will certainly turn it over to Senator Murphy for his 
opening statement.
    But let me just make a couple comments to begin. I made my 
first trip as a United States Senator to Europe in February-
March of 2011. I visited Georgia, Ukraine, and the Baltic 
States. Georgia had already been invaded. Ukraine's primary 
problem was corruption within their wheat markets. This is 
before the invasion of Crimea and eastern Ukraine.
    What was quite notable was just the pressure that Russia 
was putting on those fledgling democracies. We called them the 
ring of democracies around Russia. And for what reason? 
Apparently just to destabilize, but we certainly determined the 
effectiveness of their propaganda, of their disinformation 
campaigns. Later we are going to find out the hybrid warfare 
that they instituted in Crimea and then burgeoning into the 
invasion of eastern Ukraine.
    So the title of this hearing, ``European Energy Security: 
U.S. Interests and Coercive Russian Diplomacy,'' would just be 
another method that Russia is utilizing to destabilize.
    Our goal as the United States is to stabilize, provide 
security. And in subsequent trips over to Europe, it is pretty 
easy to make the point to our European allies and people that 
are struggling to shed the legacy of Russian corruption, of 
Soviet Union corruption. Their future lies with the West 
certainly economically. There is no economic future looking to 
the East or Russia.
    And so what we need to do is we need to do everything we 
can to help stabilize the situation. The purpose of this 
hearing is--again, the subsequent visits to these nations--and 
this is actually quite confusing, all the different pipelines, 
which ones we should support, which ones should we not support, 
what type of infrastructure needs to be built. That is really 
kind of the purpose of this hearing is trying to lay out the 
facts, how important energy security is. You know, America--we 
have done a pretty good job of becoming energy independent. We 
need to do everything we can to encourage Europe to take a look 
at this holistically, strategically, and make sure, again, not 
to deny the use of Russian oil and gas but to make sure that 
they cannot utilize that in their coercive diplomacy.
    So, again, I want to thank the witnesses for your 
testimony. We are going to look forward to it.
    With that, I will turn it over to Senator Murphy.
    [Senator Johnson's prepared statement follows:]


         Prepared Statement of Senator Ron Johnson of Wisconsin

    Good morning and welcome. The Senate Foreign Relations Subcommittee 
on Europe and Regional Security Cooperation is meeting today to examine 
European energy security. We will hear from two Administration 
officials on U.S. interests and policy options on this issue.
    In a recent speech at the Wilson Center that Assistant Secretary 
Mitchell and I attended, Secretary Tillerson put it succinctly when he 
said, ``Russia is playing politics with energy supplies.'' For years, 
the United States has urged Europe to diversify its energy portfolio, 
increase domestic production, integrate critical infrastructure, and 
coordinate on energy policy. The U.S. has done so, not just because 
energy independence strengthens our allies, but because Russia views 
its vast stores of oil and natural gas as arrows in its geopolitical 
arsenal. Unfortunately, Europe's fractured approach to energy security 
combined with certain countries' willful blindness towards the problem 
have left Europe vulnerable to the political coercion that often 
accompanies Russian hydrocarbons.
    The European Union is currently the world's largest energy 
importer. More than half of its energy needs come from external 
sources, with the daily bill totaling more than =1 billion. Russia is 
the EU's dominant supplier, accounting for 33 percent of natural gas 
imports and 36 percent of oil imports. EU dependence on Russian imports 
varies widely across its individual members. Eleven member states 
depend on Russia for at least three quarters of their gas imports. 
Nine, however, do not import any Russian gas. This disparity is a major 
factor in the EU's inability to implement an integrated energy policy. 
Russia, moreover, has further solidified its influence by amassing 
significant holdings in Europe's energy infrastructure, including 
pipelines, distribution, and storage facilities.
    Despite some progress since the 2014 Ukraine crisis, most analysts 
agree that EU dependence on Russian gas will increase in the near term. 
Over the same period, aggressive emission reduction goals are expected 
to increase the EU's reliance on natural gas in its overall energy mix. 
The question for this committee today is what, if anything, can the 
United States do about it. U.S. policy has historically focused on 
supporting the development of viable alternatives. For a host of 
reasons, these alternatives have remained elusive. Instability in North 
Africa and the Middle East have stifled increased exports from those 
regions, despite ample supply. The Southern Gas Corridor project has 
been resurrected, but even if completed, initial output will not 
significantly alter Russia's market share. Liquefied natural gas holds 
significant promise, but it is yet unclear whether Europe will embrace 
it as a major alternative. Tellingly, the most significant project in 
the works is Nord Stream 2, which will double the capacity of Russian 
gas exports to Germany via the Baltic Sea, severely curbing the 
political leverage of transit states such as Poland, Ukraine, and 
Slovakia.
    The growing energy independence of the United States, fueled by the 
shale boom of the last decade, stands in stark contrast to the 
predicament of our European allies. As the U.S. becomes increasingly 
insulated from the geopolitics of the global energy market, it is vital 
that we do not lose sight of the importance of European energy 
independence for our security. Russian has the means and has 
demonstrated the will to coerce political change in states that rely 
upon its energy exports. This is a potent tool with which Russia can 
further its policy of instability and division within NATO and Europe. 
Our hearing today will examine how U.S. policy can best ensure this 
does not happen.


                STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you for convening this hearing.
    Thank you to both of our witnesses. I look forward to your 
testimony.
    This morning there was a deadly explosion at a gas plant in 
Austria. It sent a shock wave through European energy markets. 
Already prices for delivery are soaring, one dead, several 
injured. This is a reminder frankly of the fragility of 
European energy security, but it is not a wakeup call because 
we have had plenty of those before.
    Almost a decade ago in January of 2009, the lights went out 
in Europe. A dispute between Russia and Ukraine led the Russian 
Government to cut off gas supplies to Europe in the middle of 
the winter, leaving most of southeast Europe and several other 
countries without power. The standoff continued for 2 weeks.
    And so this crisis now a decade ago--it exposed the 
region's overwhelming reliance on Russian gas. And it did 
motivate the European Union to adopt the Third Energy Package 
later that year. Since then, it has been a chore to keep all of 
the European Union together in that initiative, though there 
have been some, I think, very encouraging developments, the 
development of new interconnector pipelines so that gas can 
more easily move within Europe, improved regulatory frameworks 
so that Russia cannot bully smaller countries. There are some 
very positive things happening.
    But we saw a budget submitted to the Congress earlier this 
year which proposed a $50 billion increase in defense and a 40 
percent reduction to the State Department, the State Department 
which oversees work with Europe to try to reduce dependency on 
Russian oil. We are simply fooling ourselves as a Congress and 
as a country if we think we can protect this nation and our 
treaty allies with a 40 percent reduction to the Department 
that works primarily in the area of energy security. We have to 
fundamentally rethink the way in which we allocate resources to 
protect this country. The military is important, and I am 
darned proud of the helicopters and the submarines and the jet 
engines that we make in Connecticut. But when it comes to 
European security, we have to recognize that the way in which 
we spend money today simply is not working.
    And so to that end, I am currently working on legislation 
that would establish an investment fund that pools resources to 
diversify energy sources and energy transport capabilities of 
Central and Eastern European countries. We are spending $4 
billion on a European Reassurance Initiative that is almost all 
military spending. That is important. But if we are spending no 
money trying to actually move their gas and oil dependence away 
from Russia, then we are simply not meeting the security needs 
of our treaty allies.
    So thank you, Mr. Chairman, for convening this. I look 
forward to the witnesses.
    Senator Johnson. Thank you, Senator Murphy.
    Our first witness is Dr. Wess Mitchell. Dr. Mitchell is the 
Assistant Secretary of State for European and Eurasian Affairs.
    Prior to his appointment, Dr. Mitchell co-founded and spent 
12 years building the Center for European Policy Analysis. He 
is the author of numerous articles, reports, and books on 
transatlantic relationships and geopolitics. Dr. Mitchell 
received his Ph.D. in political science from Freie University 
in Berlin, Germany.
    Dr. Mitchell?

STATEMENT OF HON. A. WESS MITCHELL, ASSISTANT SECRETARY, BUREAU 
 OF EUROPEAN AND EURASIAN AFFAIRS, UNITED STATES DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Dr. Mitchell. Thank you, Chairman Johnson and Ranking 
Member Murphy, for inviting me to testify before this 
subcommittee on European energy security. I appreciate the 
Senate's leadership on this subject and in particular the 
active role that both of you have played in keeping 
congressional attention focused on this and other important 
dimensions of transatlantic security.
    We live in a time of profound change: Change in 
international economics, change in technology, change in the 
scale and nature of threats facing the West. These changes make 
it more important than ever that the United States be strategic 
in its approach to Europe and that we cultivate strong 
alliances as an advantage in geopolitical competition. No other 
power in history, past or present, has had the wealth of allies 
that the United States has today. President Trump and Secretary 
Tillerson have made a priority of strengthening our alliances. 
That commitment has been underscored in multiple cabinet-level 
visits to Europe, affirmations of article 5 of NATO, seven 
trips to Europe by Secretary Tillerson, $1.4 billion in new 
funding requests for the European Defense Initiative, 
intensified U.S. diplomatic engagement in the crises on 
Europe's southern and eastern frontiers, and as we will discuss 
today, increased attention to the U.S. role in the 
diversification of European energy.
    The energy security of our allies is a fundamental U.S. 
national interest. When allies' access to reliable and 
diversified energy is secure, they are less susceptible to 
pressure from outside powers. In recent years, we have been 
reminded of just how vulnerable many of our allies in Europe 
are in this regard. Russia has repeatedly demonstrated its 
willingness to wield its vast natural resources as a 
geopolitical weapon against our allies. One study found 55 
instances of Russia using supply cutoffs for political purposes 
over a 14-year period. Another identified 41 examples in 1 year 
alone of Moscow linking political demands to energy deliveries.
    Today, EU member states collectively remain the largest net 
energy importer in the world, and the Russian Federation 
remains by far their biggest single supplier.
    It is neither possible nor desirable to exclude Russian gas 
from the European market. The problem is that Russian leaders 
tend to view energy exports not as a matter of supply and 
demand, but as the extension of politics by other means. Moscow 
is working to construct two new pipelines, Nord Stream 2 and a 
multi-line Turk Stream which, if completed, would bypass 
Ukraine as a transit country, heighten the vulnerability of 
Poland and the Balkans, and deepen European dependence on the 
Russian gas monopoly.
    Russia's goal is to divide the West and drive America apart 
from our allies. Its efforts are smart and coordinated. The 
manipulative use of energy is part of a toolkit that includes 
cyber attacks and disinformation, as well as military buildups, 
exercises, threats, and as we have seen in Ukraine and Georgia, 
the actual use of military force.
    To counter these methods, the United States pursues a 
European energy security strategy built on three planks: 
diversification of fuel types, of countries of origin, and of 
delivery routes. We are working to spur the development of 
infrastructure for diversity of supply through import terminals 
like Croatia's Krk Island liquefied natural gas floating 
storage and regasification project. We encourage allies to 
invest in intra-European pipelines, and we are revising the 
rules governing the export of liquefied natural gas and U.S.-
produced crude oil, which will unlock the wealth of American 
energy to the strategic benefit of allies and provide a boon to 
the U.S. economy.
    The advent of cheap and abundant LNG is turning natural gas 
into a globally traded commodity, connecting otherwise isolated 
regional markets to the Atlantic basin. For allies reliant on a 
single source of energy, the mere availability of LNG provides 
leverage when negotiating contracts with Russia. To cite one 
notable example, in the period since Lithuania began importing 
LNG, the price it pays for gas has fallen 20 percent.
    An important component in U.S. strategy is to encourage 
closer political and economic cooperation at the regional level 
among the allies most vulnerable to supply manipulation in 
Central and Eastern Europe. Lack of seriousness about the need 
to increase north-south infrastructure between the Baltic and 
Black Seas has contributed to Europe's vulnerability. We have 
prioritized U.S. engagement in groupings such as the Three Seas 
Initiative, Visegrad Group, Bucharest Nine, and Nordic-Baltic 
group as platforms for bolstering the region's resilience 
against energy coercion.
    In all of our efforts, we seek to ensure open, competitive, 
and sustainable energy markets. We advocate for fair and 
transparent competition to give U.S. companies a level playing 
field. We encourage the EU to abide by its own commitments to 
diversification under instruments like the Third Energy 
Package. Some of the largest EU member states ignore these 
instruments in pursuit of commercially advantageous deals with 
Gazprom that undercut fellow member states to the East.
    Russian influence makes easier headway in countries that 
are weak internally. To reduce those vulnerabilities, we work 
to strengthen the components of stability in the countries of 
the western Balkans.
    This administration recognizes energy security as a 
fundamental component of U.S. national security objectives in 
Europe. We will continue to work closely with our allies and 
partners there to move the European continent toward a more 
diversified, efficient, and secure energy landscape. This is 
one of my foremost concerns as Assistant Secretary for European 
and Eurasian Affairs, and I remain committed to working with 
this subcommittee and Congress to achieve these objectives.
    Senator Johnson, distinguished members of the subcommittee, 
I thank you for the opportunity to appear before this body. I 
appreciate your leadership on this critical issue and look 
forward to your questions.
    [Dr. Mitchell's prepared statement follows:]


                 Prepared Statement of A. Wess Mitchell

    Chairman Johnson and Ranking Member Murphy, thank you for inviting 
me to testify before this Subcommittee on European energy security. 
This is a matter of great strategic importance not just for our allies, 
but for the United States, and therefore a major concern for the Bureau 
of European and Eurasian Affairs. I appreciate the Senate's leadership 
on this subject and in particular the active role that you have played, 
Mr. Chairman, in keeping Congressional attention focused on this and 
other dimensions of transatlantic security.
    We live in a time of profound change. Change in international 
economics, change in technology, and change in the scale and nature of 
threats facing the West. These changes make it more important than ever 
that the United States be strategic in its approach to Europe and that 
we consciously cultivate strong alliances as an advantage in 
geopolitical competition. No other power in history, past or present, 
has had the wealth of allies that the United States has today. 
President Trump and Secretary Tillerson have made a priority of 
strengthening alliances. That commitment has been underscored in 
multiple Cabinet-level visits to Europe, including seven trips by 
Secretary Tillerson; $1.4 billion in new funding requests for the 
European Defense Initiative; intensified U.S. diplomatic engagement in 
the crises on Europe's southern and eastern frontiers; and, as we will 
discuss today, increased attention to the U.S. role in the 
diversification of European energy.
    The energy security of our allies is a fundamental U.S. national 
interest. When allies' access to reliable and diversified energy is 
secure, they are less susceptible to pressure from outside powers. In 
recent years, we have been reminded of just how vulnerable many of our 
allies in Europe are in this regard. Russia has repeatedly demonstrated 
its willingness to wield its vast natural resources as a geopolitical 
weapon against our allies. A Swedish study found 55 instances of Russia 
using supply cutoffs for political purposes over a 14-year period. The 
Estonian government identified 41 examples in one year alone of Moscow 
linking political demands to energy deliveries. In 2006, 2009, and 
2014, Russian cutoffs to Ukraine disrupted gas flows to countries as 
far west as France and forced businesses and schools across 
southeastern Europe, in the dead of winter, to close for lack of heat 
amid freezing temperatures.
    Despite years of efforts at diversification, today, EU member 
states collectively remain the largest net energy importer in the world 
and the Russian Federation remains by far their single biggest 
supplier, comprising more than a third of total EU oil and natural gas 
imports. For 11 EU member states, Russia supplies more than 75 percent 
of annual gas imports. For several countries, including Bulgaria, 
Finland, and Macedonia, the figure is closer to 100 percent.
    It is neither possible nor desirable to exclude Russian gas from 
the European market. The problem is that Russian leaders view energy 
exports not as a matter of supply and demand but as the extension of 
politics by other means. Moscow is working to construct two new 
pipelines, Nord Stream 2 and a multi-line Turk Stream, which if 
completed, would bypass Ukraine as a transit country, heighten the 
vulnerability of Poland and the Balkans, and deepen European dependence 
on the Russian gas monopoly.
    Russia's goal is to divide the West and drive America apart from 
our allies. Its efforts are smart and coordinated. The manipulative use 
of energy is part of a toolkit that includes cyber-attacks and 
disinformation, as well as military buildups, exercises, threats and-as 
we have seen in Ukraine and Georgia, invasions.
    To counter these methods, the United States pursues a European 
energy security strategy built on three planks: diversification of fuel 
types, diversification of countries of origin, and diversification of 
delivery routes. We are working to spur the development of 
infrastructure for diversity of supply through import terminals like 
Croatia's Krk Island liquefied natural gas (LNG) floating storage and 
regasification project. We encourage allies to invest in intraEuropean 
pipelines like the Gas Interconnector Greece-Bulgaria, Gas 
Interconnector BulgariaSerbia, and Gas Interconnector Poland-Lithuania. 
And, we are revising the rules governing the export of liquefied 
natural gas and U.S.-produced crude oil, which will unlock the wealth 
of American energy to the strategic benefit of allies and provide a 
boon to the U.S. economy.
    The advent of cheap and abundant LNG is turning natural gas into a 
globally traded commodity, connecting otherwise isolated regional 
markets, including the Atlantic Basin. For allies reliant on a single 
source of energy, even the hypothetical availability of LNG provides 
leverage when negotiating contracts with Russia. To cite one notable 
example, in the period since Lithuania began importing LNG, the price 
it pays for gas has fallen 20 percent.
    An important component in U.S. strategy is to encourage closer 
political and economic cooperation at the regional level, among the 
allies most vulnerable to supply manipulation in Central and Eastern 
Europe. Lack of seriousness about the need to increase North-South 
infrastructure in the space between the Baltic and Black Seas has been 
a contributing factor to Europe's geopolitical vulnerability in the 
East. We have prioritized U.S. engagement in regional groupings such as 
the Three Seas Initiative, Visegrad Group, Bucharest Nine, and Nordic-
Baltic group as platforms for bolstering the region's resilience 
against energy coercion.
    In all of our efforts, we seek to ensure open, competitive, and 
sustainable energy markets. We advocate for fair and transparent 
competition to give U.S. companies a level playing field. We continue 
to encourage the European Union to abide by its own commitments to 
diversification under instruments like the Third Energy Package. Some 
of the largest EU member states ignore these instruments in pursuit of 
commercially advantageous deals with Gazprom-deals that undercut fellow 
member states to the East. We support the work of the European 
Commission and Baltic States to integrate the Baltic power network into 
the European electricity grid. And we applaud the European Commission's 
investigation of abuses of Russian market dominance, which compelled 
Gazprom to remove contractual requirements restricting the destination 
and resale of gas. As a result, Ukraine, which previously imported all 
of its natural gas directly from Russia, was able last month to 
celebrate two consecutive years of receiving all gas from European 
partners through reverse flows.
    Russian influence makes easier headway in countries that are weak 
internally. To reduce those vulnerabilities, the United States works to 
strengthen the components for domestic stability and constitutional 
order in the countries of the Western Balkans. As seen in Moscow's 
effort to destabilize Montenegro during its 2016 parliamentary 
elections, this region is the target of focused Russian attempts at 
strategic penetration. For this reason, as Secretary Tillerson has made 
clear, the United States must prioritize this and other regions of 
Europe under Russian duress.
    This administration recognizes energy security as a fundamental 
component of U.S. national security objectives in Europe. We will 
continue to work closely with our allies and partners there to move the 
European continent toward a more diversified, efficient, and secure 
energy landscape. This is one of my foremost concerns as Assistant 
Secretary for European and Eurasian Affairs, and I remain committed to 
working with this Subcommittee and Congress in a bipartisan manner to 
achieve these objectives.
    Senator Johnson, distinguished members of the Subcommittee, I thank 
you for the opportunity to appear before this body. I appreciate your 
leadership on this critical issue and look forward to your questions.


    Senator Johnson. Thank you, Secretary Mitchell.
    Our next witness is Mr. John McCarrick. Mr. McCarrick is 
the Deputy Assistant Secretary in the Bureau of Energy 
Resources at the State Department. He previously advised 
institutional investors on policy and political risk in energy 
and related sectors. Mr. McCarrick also practiced corporate law 
at Hogan and Hartson and was an investment banker at Merrill 
Lynch. He is a graduate of Georgetown University and Georgetown 
University Law Center.
    Secretary McCarrick?

  STATEMENT OF JOHN E. McCARRICK, DEPUTY ASSISTANT SECRETARY, 
BUREAU OF ENERGY RESOURCES, UNITED STATES DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. McCarrick. I would like to thank Chairman Johnson, 
Ranking Member Murphy, and the members of this subcommittee for 
the opportunity to appear today to discuss European energy 
security, an issue of vital importance to the United States.
    A discussion of the role the Russian Federation plays in 
Europe's overall energy security is both fitting and timely.
    I will focus on a few themes, including the dangers of 
energy overdependence and the critical importance of energy 
diversification in bolstering energy security. I will highlight 
the contribution that liquefied natural gas, or LNG, can make 
to Europe's energy diversification efforts and also the need 
for Europe to continue to improve its energy infrastructure and 
to implement measures to promote a more integrated and flexible 
energy market.
    Energy security is a top policy priority for our European 
partners because many of them are highly dependent on a single 
supplier, the Russian Federation, for gas imports. Although 
some of the most vulnerable countries in Europe are making 
rapid progress to reduce their dependence, 11 continue to rely 
on Russian gas for 75 percent or more of their annual needs and 
several others for 50 percent or more.
    The dangers of excessive dependence on a single supplier 
were highlighted, as Senator Murphy noted, in 2006, 2009, and 
2014 when Russia cut off gas supplies to and through the 
Ukraine, hurting both the Ukraine and other Russian countries. 
Such actions are a reminder of Russia's persistent use of 
energy as a weapon.
    The United States does not seek to eliminate Russian gas 
from the market. Our priority is helping Europe minimize 
dependence upon a single supplier. The United States supports a 
pro-Europe energy security policy based on diversification of 
fuel types, supply sources, and delivery routes. These actions 
are all needed to foster a more open and competitive European 
energy market, one in which all companies play by free market 
rules.
    Indeed, the United States advocates for infrastructure 
projects, projects identified by the European Union as projects 
of common interest, that enhance diversification.
    We have long advocated for projects like the Southern Gas 
Corridor that will help Southern and Central Europe diversify 
its natural supply with 10 billion cubic meters per year of gas 
from Azerbaijan and the Caspian Sea region as soon as 2020. 
This will be among the first entirely new sources of gas for 
Europe in many years.
    In similar fashion, together with the European Union, we 
promote the merits of projects like Baltic Pipe, which would 
bring new supplies of natural gas from Norway via Denmark to 
Poland and on to countries of Central and Eastern Europe.
    Importation of LNG, including from the United States when 
market conditions dictate, can also play an important role in 
diversification of Europe's gas supply. However, to secure the 
maximum benefit that LNG offers in promoting diversification, 
the proper infrastructure is essential. Europe must have both 
sufficient regasification capacity and the pipeline 
interconnectors to deliver the gas to the broadest range of 
customers.
    We applaud the steps taken by Poland to construct a 
regasification terminal at Swinoujscie and by Lithuania to 
build a floating storage and regasification unit, or FSRU, in 
the port of Klaipeda. The impact of introducing LNG import 
infrastructure can be transformative. As Assistant Secretary 
Mitchell noted, after they opened this terminal, they were able 
to negotiate a 20 percent reduction in price and also reduce 
their reliance on Russian gas from 100 percent in 2015 to 45 
percent in 2016.
    While these are positive steps, much work remains if LNG is 
to contribute more options to Europe's energy security. The 
United States supports the establishment of an FSRU at Krk 
Island, Croatia and has committed technical assistance and 
diplomatic engagement to the realization of the project. In 
addition, the United States has endorsed key pipeline 
interconnectors to reach consumers in southern Central Europe, 
a region that is among the most dependent on Russian gas 
supplies.
    We continue to oppose projects that foster dependence on 
Russia, including Nord Stream 2 and a multi-line Turkish 
Stream. Russia's aim is political in nature and these projects 
would allow Russia to make good on its threat to eliminate 
Ukraine as a gas transit state. This not only would deprive 
Ukraine of over $2 billion in annual transit revenues, but of a 
vital, physical, and symbolic link to the West. Construction of 
Nord Stream 2 would also concentrate 75 to 80 percent of 
Russian gas imports to the EU through a single route, thereby 
creating a potential choke point that would significantly 
increase Europe's vulnerability to supply disruption, whether 
intentional or accidental.
    We welcome the skepticism and vocal opposition within 
Europe to these unwise projects.
    We note, too, that a number of European allies have 
expressed national security and energy security concerns over 
Nord Stream 2.
    As I close, I want to emphasize that our goal in 
implementing sanctions, both those imposed by executive order 
and those provided for in law, have been to impose costs on 
Russia, the target of these sanctions, for its malign behavior. 
Neither the U.S. business community nor firms of our partners 
and allies are the targets of sanctions. We are committed to 
the coordination with partners and allies called for in 
Countering America's Adversaries Through Sanctions Act of 2017 
and have consulted on multiple occasions with European, G7, and 
other allies. We are committed to the full implementation of 
this new sanctions law.
    Again, I would like to thank the subcommittee for the 
opportunity to appear today, and I welcome your questions.
    [Mr. McCarrick's prepared statement follows:]


                Prepared Statement of John E. McCarrick

    I'd like to thank Chairman Johnson, Ranking Member Murphy, and the 
members of the subcommittee for the opportunity to appear today, to 
discuss European energy security, an issue of vital importance to the 
United States.
    A discussion of the role the Russian Federation plays in Europe's 
overall energy security is both fitting and timely.
    I will focus on several themes, including the dangers of energy 
over-dependence and the critical importance of energy diversification 
in bolstering energy security. I will highlight the contribution that 
liquefied natural gas (LNG) can make to Europe's energy diversification 
efforts and also the need for Europe to continue to improve its energy 
infrastructure and to implement measures to promote a more integrated 
and flexible energy market.
    Europe's energy security is central to the national security of our 
NATO allies and EU partners, and it undergirds what is currently the 
world's single largest trade and investment relationship.
    The United States strongly supports enhancing European energy 
security. An energy secure Europe serves as a strong partner for the 
United States in meeting global challenges, and the Administration is 
working closely with our European allies and partners to aid them in 
achieving their own goals to enhance their energy security.
    Energy security is a top policy priority for our European partners 
because many of them are highly dependent on a single supplier--the 
Russian Federation--for gas imports. Although some of the most 
vulnerable countries in Europe are making rapid progress to reduce 
their dependence, eleven continue to rely on Russian gas for 75 percent 
or more of their annual needs, and several others for 50 percent or 
more.
    The dangers of excessive dependence on a single supplier were 
highlighted in 2006, 2009, and 2014 when Russia cut off gas supplies to 
and through Ukraine, hurting both Ukraine and other European countries. 
Such actions are a reminder of Russia's persistent use of energy as a 
weapon. In light of these actions, the United States has worked with 
allies and partners to address single supplier dependence. 
Understandably, many European countries view overreliance on Russia as 
a vulnerability--a national security threat--and we are working to 
support their efforts to diversify their energy supply and improve 
energy infrastructure, including cybersecurity.
    The United States does not seek to eliminate Russian gas from the 
market. Russian gas can and should remain part of a diversified energy 
mix for Europe. Our priority is helping Europe minimize dependence upon 
a single supplier. The United States supports a pro-Europe energy 
security policy based on diversification of fuel types, supply sources, 
and delivery routes. These actions are all needed to foster a more open 
and competitive European energy market--one in which all companies play 
by free market rules.
    Indeed the United States advocates in favor of infrastructure 
projects--projects identified by the European Union as ``Projects of 
Common Interest''--that enhance diversification.
    We have long advocated for projects like the Southern Gas Corridor 
that will help Southern and Central Europe diversify its natural gas 
supply with 10 billion cubic meters per year of gas from Azerbaijan and 
the Caspian Sea region as soon as 2020. This will be among the first 
entirely new sources of gas for Europe in many years.
    In similar fashion, together with the European Union, we promote 
the merits of projects like Baltic Pipe, which would bring new supplies 
of natural gas from Norway via Denmark to Poland and on to other 
countries of Central and Eastern Europe.
    Importation of liquefied natural gas (LNG), including from the 
United States when market conditions dictate, can also play an 
important role in diversification of Europe's gas supply; however, to 
secure the maximum benefit that LNG offers in promoting 
diversification, the proper infrastructure is essential. Europe must 
have both sufficient regasification capacity and the pipeline 
interconnectors to deliver the gas to the broadest range of consumers.
    We applaud the steps taken by Poland to construct a regasification 
terminal at Swinoujscie (sveen-oh-OOSH-chay) and by Lithuania to build 
a floating storage and regasification unit (FSRU) in the port of 
Klaipeda (KLAY-peh-duh). The impact of introducing LNG import 
infrastructure can be transformative. Lithuania's 2015 deployment of 
the Klaipeda
    FSRU provided real competition for Russian gas pipelines. After 
inaugurating its LNG terminal, Lithuania was able to negotiate a 20 
percent reduction in the price it pays for Russian gas. More 
importantly, the ability to import LNG from alternative sources led to 
a reduction in Gazprom's share of Lithuania's gas market from 100 
percent in 2015 to 45 percent in 2016.
    While these are positive steps, much work remains if LNG is to 
contribute more options to Europe's energy supply. The United States 
supports the establishment of an FSRU at Krk Island, Croatia, and has 
committed technical assistance and diplomatic engagement to the 
realization of this project. In addition, the United States has 
endorsed key pipeline interconnectors like the Interconnector Greece-
Bulgaria and the Interconnector Bulgaria-Serbia. These interconnectors 
will enable non-Russian gas--including LNG imported through Greece and 
gas imported via the Southern Gas Corridor--to reach consumers in South 
Central Europe--a region that is among the most dependent on Russian 
gas supplies.
    We continue to oppose projects that foster dependence on Russia, 
including Nord Stream 2 and a multi-line Turkish Stream. Russia's aim 
is political in nature, as they want to develop these projects to gain 
the technical capacity to make good on its threat to eliminate Ukraine 
as a gas transit state. This not only would deprive Ukraine of over $2 
billion in annual transit revenues, but of a vital, physical and 
symbolic link to the West. Construction of Nord Stream 2 would 
concentrate 75 to 80 percent of Russian gas imports to the EU through a 
single route, thereby creating a potential choke point that would 
significantly increase Europe's vulnerability to supply disruption, 
whether intentional or accidental.
    We welcome the skepticism and the vocal opposition within Europe to 
these unwise projects. We applaud the efforts of European partners who 
are scrutinizing all aspects of these projects--assessing the legal, 
environmental, and security implications--and seeking full application 
of EU regulations on energy market liberalization.
    We note, too, that a number of European allies have expressed 
national security and energy security concerns over Nord Stream 2--
reasonable concerns, in our view, in light of Russia's increasingly 
aggressive military posture in the Baltic Sea region and history of 
using its energy resources for political purposes.
    As I close, permit me to offer a few words on sanctions and energy 
security. Our goal in implementing sanctions, both those imposed by 
Executive Order and those provided for in law, has been to impose costs 
on Russia, the target of these sanctions, for its malign behavior. 
Neither the U.S. business community, nor the firms of our partners and 
allies are the targets of our sanctions. We are committed to the 
coordination with partners and allies called for in the Countering 
America's Adversaries Through Sanctions Act of 2017, and have consulted 
on multiple occasions with European, G7 and other allies. We are 
committed to the full implementation of this new sanctions law.
    Again, I would like to thank the subcommittee for the opportunity 
to appear today, and I look forward to your questions.


    Senator Johnson. Again, thank you, Secretary McCarrick.
    Let me just start out by asking--both Senator Murphy and 
you mentioned the fact that we first saw Russia utilize oil as 
a diplomatic weapon in 2006 and again in 2009 and 2014. What 
has been the delay? I mean, what is the stumbling block in 
terms of responding to it in a more robust fashion in terms of 
creation of more infrastructure, more pipeline to deny them 
that and reduce that vulnerability?
    Mr. McCarrick. There have been projects since then that 
have increased the transit of gas. There has also been--working 
closely with the State Department, we were able to negotiate a 
change in the way the Ukraine buys gas. They have not bought 
any gas directly from Russia in the last 2 years. So there have 
been transit agreements that have allowed for them not to 
purchase gas directly from the Russians.
    Senator Johnson. Do you know the level of investment that 
has been made to, again, diversify the pipelines, that type of 
thing since 2006, 2009?
    Mr. McCarrick. I do not have the exact numbers in front of 
me, but we can get those to you.
    [The information referred to above follows:]


              Mr. McCarrick's Response to Senator Johnson

    Mr. McCarrick.  Governments and the private sector have made 
significant investments to diversify Europe's energy sector and enhance 
its energy security since 2006. The European Commission's Connecting 
Europe Fund made a commitment of =5.35 billion to the energy sector for 
the period 2014-2020, of which =1.6 billion has already been committed 
to 74 of the European Union's ``Projects of Common Interest'' (PCI). In 
addition, EU cohesion funds, in particular the European Regional 
Development Fund (ERDF), also provide support to smart energy storage 
and transmission systems. Currently six Member States have planned 
about =2 billion in investments for the 2014-2020 period, with one 
fourth of these funds directly for PCI projects. Poland's Swinoujscie 
LNG terminal represented an investment of roughly $840 million, 
including EU financing. The floating storage and regasification unit at 
the port of Klaipeda, self-funded by Lithuania, cost roughly =128 
million to construct.
    The Southern Gas Corridor represents an investment of approximately 
$40-45 billion. This has largely been financed by the private sector 
with support from the European Union and multilateral development 
banks.


    Senator Johnson. Do you have any idea of how much it would 
take to really completely diversify it?
    Mr. McCarrick. Well, diversification is difficult in the 
sense that there are not as many--the countries in Europe do 
not have the natural resources that we do in the United States. 
And so diversification for them really is a question of using 
LNG, for one, that would come from us and other sources. But 
candidly the diversification that I talked about in terms of 
building the pipe that would run into Poland is one way of 
diversification, and the Southern Gas Corridor is another way 
of diversification.
    Senator Johnson. Again, I am just trying to get some sort 
of sense. You got to build infrastructure, pipelines, 
terminals, that type of thing. I mean, is it a $50 billion 
investment? Is it a $100 billion investment? Secretary 
Mitchell, do you have any feel for that?
    Dr. Mitchell. Let me say that in the case of Ukraine 
specifically since the start of the conflict in 2014, the 
United States has provided around $60 million in energy 
security assistance, and that is by far the largest 
concentration of U.S. aid anywhere in Europe on energy.
    On pipelines specifically, there are a number of very 
important interconnector projects which the United States has 
promoted. We do that through a combination of diplomacy and in 
some cases technical and financial assistance. So diplomacy is 
particularly critical because in many cases these 
interconnectors are consistent with existing EU policy under 
the Third Energy Package, but the EU implements unevenly. So 
for the United States to weigh in often helps make a 
difference.
    In cases like Krk Island, as you saw President Trump commit 
$1 million on the financial and technical side, the U.S. help 
is particularly useful in creating legal frameworks working 
with local allies and partners through things like tariff 
agreements, tariff rates. I think it is on the technical side 
that the United States has made the biggest difference in some 
of these interconnecting pipelines and much less on the 
financial side in terms of direct U.S. taxpayer resources going 
towards the pipelines themselves.
    Senator Johnson. And again, I was not really, at this 
point, talking about U.S. involvement. I am just talking about 
overall investment. In my briefing pack, I was actually 
surprised--the size of this. It said about =1 billion per day 
is what they import. So it is =365 billion into an economy--
what--$15 trillion to $20 trillion large. So size-wise, I was 
actually surprised. I would have thought energy would have been 
more than that.
    So in light of about a =365 billion per year import fee for 
gas, I am just trying to figure out how much would be the 
required investment to diversify the transit of that so we do 
not allow Russia to have that type of power.
    Dr. Mitchell. I do not have that figure offhand. I have 
seen figures, though, that give a sense of the scale on the 
European side through a combination of government and private 
financing, the scale of investment in some of these pipelines. 
I would be happy to do a research and return and come up with 
some aggregate numbers for you.
    Senator Johnson. Okay. Yes, because I just think that is a 
key feature.
    [The information referred to above follows:]


               Dr. Mitchell's Response to Senator Johnson

    Dr. Mitchell. In 2014, the EU estimated it spent over =365 billion 
annually importing energy. In 2016, Russia accounted for 31.7 percent 
of oil imports and 39.5 percent of gas imports to the EU, measured as a 
percentage of total value of each commodity.\1\ The best way to reduce 
Russian energy import dependency is for the EU to invest in domestic 
energy production, such as renewables, civil nuclear power plants, 
high-efficiency coal power plants; continue exploration for new oil and 
gas fields; and invest in infrastructure to import energy from 
alternative sources. An excellent example of the latter is the Southern 
Gas Corridor, which is being constructed at a cost of about $40 billion 
to deliver 10 billion cubic meters annually of gas from Azerbaijan. The 
EU's own assessment\2\ is that its energy infrastructure is aging and, 
in its current state, not suited to match future demand for energy, to 
ensure security of supply, or to support large-scale deployment of 
energy from renewable sources. Upgrading existing and developing new 
energy transmission infrastructures of importance, for example, would 
require investments of about =140 billion for electricity and at least 
=70 billion for gas.


    \1\ Eurostat provisional report: EU Imports of Energy Products--
Recent Developments http://ec.europa.eu/eurostat/statistics-explained/
index.php/EU_imports_of_energy_products_recent_developments (downloaded 
January 26, 2018)
    \2\ Commission staff working paper, Executive Summary of Impact 
Assessment accompanying the document regulation of the European 
Parliament and of the Council on guidelines for the implementation of 
European energy infrastructure priorities, repealing Decision No 1364/
2006/EC (COM(2011) 658) and communication from the Commission to the 
European Parliament, the Council, the European Economic and Social 
Committee and the Committee of the Regions, Energy Infrastructure 
Priorities for 2020 and Beyond--A Blueprint for an Integrated European 
Energy Network (COM(2010) 677)
---------------------------------------------------------------------------
    Senator Johnson. Who does invest in these pipelines? Is it 
the countries themselves? Is it private capital? Is it the 
Gazproms of the world? I know they do, but I mean, where is the 
incentive to actually invest in pipelines?
    Dr. Mitchell. It is primarily on the private side. So the 
overwhelming bulk of investment in interconnectors and 
pipelines comes from the private sector, and you very often 
have commercially viable gas or oil fields, the development of 
which and delivery of those resources to Europe represents a 
commercial opportunity. And that is usually what spurs 
investment. Diplomacy and government action, particularly on 
the U.S. side, usually constitutes a way of encouraging what is 
already a set of preexisting market incentives.
    Senator Johnson. Okay. I will turn it over to Senator 
Murphy.
    Senator Murphy. Thank you very much.
    I am very glad that both of you are where you are. Big fans 
of both of your work.
    But, Secretary Mitchell, you sort of just made my point for 
me. You mentioned that we are spending $60 million on energy 
security in Ukraine, and that is by and far the most that we 
are spending in any country. The administration has requested 
$4.8 billion in European Reassurance Initiative funding for the 
coming year. I tried to do the quick math, but suffice it to 
say we fundamentally misunderstand the threat to Ukraine. 
Russia does not want to militarily own Ukraine. It wants to 
economically and politically break Ukraine, and it wants to use 
energy as a means of doing that. So by spending $60 million on 
energy security and requesting $4.8 billion for military 
security, I just think we are totally misaligned with the 
actual threats. That is commentary not a question.
    Let me stay with Ukraine, though, Secretary Mitchell. I 
have got a letter here that I will submit for the record, 
without objection, from the CEO of Naftogaz. And he and others 
have been raising alarm bells here in Congress about some real 
backsliding happening in Ukraine with respect to energy reform 
and broader anticorruption reform, which is very important to 
ultimately making sense of Ukraine's gas market.


    [The information referred to above had not been received 
when this hearing went to press.]


    Senator Murphy. And one of the things they are concerned 
about is that in the Obama administration there were very often 
very high level communications from the President or Vice 
President to President Poroshenko and others in the Ukrainian 
Government about the need to move forward with reform. And 
today, the Ukrainian Government is blocking two major 
anticorruption efforts, backtracking on their promise to 
implement energy reforms and then, second, by going after the 
anticorruption bureau and the Rada's anticorruption committee.
    So, Secretary Mitchell, have you raised these concerns 
directly with President Poroshenko? Do you know if the Vice 
President or the President have raised these concerns regarding 
backsliding on energy reform and anticorruption reform with 
President Poroshenko?
    Dr. Mitchell. Thank you for that question, Senator Murphy. 
And I really appreciate your interest in this subject and 
particularly on Ukraine.
    I was just in Kyiv and was also with Secretary Tillerson on 
his recent trip to Europe where we met with some Ukrainian 
interlocutors.
    Let me just say this. This is an enormous priority for the 
Secretary. He has stated that repeatedly. I also have to 
contextualize this by applauding the Ukrainian Rada and 
Government and people for the tremendous strides that they have 
made in reform in the period since 2014. I do not think any of 
us could ever have imagined in our wildest dreams the kind of 
progress that they have made in such a short period of time.
    Secretary Tillerson has established as a very high priority 
ensuring that the Ukrainians--encouraging the Ukrainians stay 
on the track to reform not only in some of the easier areas we 
have seen progress in but the harder structural areas of 
reform. This is especially true in two areas, the establishment 
of an anticorruption court and addressing energy sector reform 
particularly with regard to gas tariffs, both of which are 
necessary for Ukraine to comply with the conditions for the 
next IMF tranche.
    I have raised these subject repeatedly and am in constant 
contact with Poroshenko, Groysman, Foreign Minister Klimkin, 
Poruvey, and others as is the Secretary. We also are 
coordinating very closely with the IMF to make sure that our 
messaging is in sync.
    Let me say that I think it is worth pointing out the 
positive steps that have been taken very recently on pension 
reform. It was positive to see Naftogaz form a supervisory 
board with independent experts in the majority. That still has 
to be signed and so we continue to make the case to Ukrainian 
interlocutors that it is not done yet.
    It was also positive to see a Ukrainian commitment to 
addressing gas tariffs.
    I would say specifically on Naftogaz, I cannot say enough 
just how important continued reform in this area is for the 
wellbeing of Ukraine going forward in both the geopolitical and 
economic sense. And I think the CEO of Naftogaz, Andre 
Kobolyev, who I met with in Kyiv, has really done an 
outstanding job not only in keeping the company committed to 
this pace but really raising concerns about the need to keep 
the overall reform pace. It is a priority for the Secretary and 
it is a priority for me as well.
    Senator Murphy. And, again, I do not underestimate the 
effect that you and the Secretary could have. I would hope that 
you would encourage the White House to directly engage because 
the Ukrainians for the last 8 years were used to engagement 
directly from the White House. And so I think that is a 
continued necessity.
    Let me turn--Secretary Mitchell, maybe on the second round 
I will try to ask you a question--to Mr. McCarrick on Nord 
Stream 2. Russia just recently announced through their state 
media that they have signed all the contracts for material, 
equipment, and services. And yet, there still seems to be some 
uncertainty as to whether the European Union or individual 
countries have the ability or the inclination to stop the 
pipeline from going forward.
    Can you just talk about what the administration's 
engagement has been on Nord Stream 2 and whether the European 
Union or individual countries like Denmark have the ability to 
stop Nord Stream 2 before it becomes operational?
    Dr. Mitchell. Thank you so much for raising that. That is a 
critical, longstanding concern for the United States and it 
continues to be a focus of our diplomacy.
    Let me be clear that our position has not changed. The 
Secretary, I think, was very forthright in saying this is an 
unwise project, as is multi-line Turk Stream. Nord Stream 2 
would circumvent Ukraine, potentially leading to something like 
$2 billion a year in revenue loss from transit fees, bypasses 
U.S. allies in Poland and the Baltic States.
    Also, I just have to point out on Nord Stream 2, this is a 
project that would concentrate 75 percent of the Russian gas to 
Europe into one pipeline. So it is not in Europe's interest. It 
is not in our interest. It is also a political rather than a 
commercial undertaking, and I think it is important to be 
crystal clear about that.
    In the context of CAATSA, let me say it is premature to 
make a determination about Nord Stream 2 absent contractual 
information which would be consistent with our guidance. We are 
monitoring it closely. I continue to raise this with German 
interlocutors, EU interlocutors, as does the Secretary as 
recently as last week on the trip. What we are doing in a 
broader sense on Nord Stream 2, in addition to speaking up--
particularly with the Germans as they form a new government, I 
think it is important for them to hear from us--we are 
encouraging EU action. There is an existing framework in place 
for the EU to take more aggressive action on Nord Stream 2 and 
similar projects if it wished to do so politically, Third 
Energy Package. And in addition to those existing tools, a 
revision was proposed in October for the EU gas directive that 
would even more directly and aggressively address the issue of 
Nord Stream 2. We also encourage member state action.
    So to your question specifically, the Secretary was 
personally involved in encouraging the Danes earlier this year 
to take a really close look at legislation that they were 
considering. The Poles and others in Europe who are likeminded 
on this issue--we coordinate with them to keep our messaging in 
sync and keep raising the issue.
    Specifically on your question of what the Danes can do, my 
understanding is that because Nord Stream 2 would go through 
Danish waters, this is a potentially significant political and 
legal stumbling block that could really slow progress on the 
pipeline. It is a positive development that we applaud, and we 
have really coordinated closely with the Danes. The credit goes 
to Denmark for moving in this direction, but I think it is 
consistent with European energy security. I just wish we could 
get Germans and other large EU member states to see it the same 
way.
    Senator Murphy. I know my time is up, but just to square 
the circle, it is important to note what you said. You said 
that this is a political initiative, meaning that most energy 
economists will tell you that this does not make sense as a 
financial endeavor moving this gas through a northern route 
pipeline, which means that it only happens with massive subsidy 
from the Russian Government, meaning they are putting 
substantial resources into this political initiative, again 
another advertisement for the United States and our allies in 
Europe to be thinking about ways in which we subsidize energy 
independence because we are simply not engaged at the same 
level as the Russians if they are spending huge amounts of 
money on compromising European energy security, and we are not 
spending substantial amounts of money to build European energy 
security.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    I did leave 1 minute on my time. I want to use it as long 
as we are talking about this topic.
    You mentioned going through Danish waters is a stumbling 
block. Are there any other situations like that where it could 
be blocked as well other than Germany just simply not accepting 
it?
    Dr. Mitchell. Well, I think that is an excellent question. 
With regard to Nord Stream 2 specifically, in addition to the 
Danes, there are other countries that this project--whose 
territorial waters this project would traverse--that I think 
are considering, for example, the environmental effects, 
looking closely perhaps if not at similar legislation, looking 
at the broader question of where they will stand on this as it 
goes forward.
    Our approach has been to speak up, particularly with those 
countries that are likeminded in not wanting to see this go 
forward to the detriment of European energy security.
    We also at the EU level continue to encourage again--and I 
cannot say this strongly enough--the EU to use the tools that 
it has. And I think there is a fairly broad political consensus 
in the EU as a set of institutions to move against Nord Stream 
2, to use existing tools, to develop new ones. The problem in 
this and so many other areas of EU energy policy is uneven 
execution largely because of political resistance from large 
member states like Germany. We will see what happens as the 
Germans pull their new government together, but to be clear, I 
think the country that could do the most to stop this project 
is Germany.
    Senator Johnson. Thank you.
    Senator Shaheen?
    Senator Shaheen. Well, thank you.
    Is there any reason to think that a new governing coalition 
in Germany might change the country's position on this 
pipeline?
    Dr. Mitchell. Well, it remains to be seen. Obviously, there 
has been a lot of recoagulation of the political variables in 
Germany in the last month or so. But I think it is clear that 
the Germans also have a stated commitment to multilateralism 
and to the European Project that is equally important for both 
of the major parties that are now talking about forming a 
coalition.
    I think U.S. diplomacy helps. I think it helps when the 
Germans hear the concerns of fellow EU and NATO member states. 
It is something we would not like to see them ignore. And I 
think we have to use this political opening before the gelatin 
mold has really set with that government to impress upon them 
the sense of responsibility that Germany should have for 
European energy security.
    Senator Shaheen. Well, I was there in October with a group 
from the Senate, and I was encouraged to hear--at that time 
they were thinking about a different coalition--that they might 
reject the pipeline. So I do think there are some scenarios 
that might allow that to happen.
    Can you tell me whether the United States is going to 
continue--or maybe it already has decided to continue--the high 
level discussions on energy issues that were established with 
the U.S.-EU Energy Council back in 2009? Is this something that 
the Trump administration wants to continue, and have you had 
any meetings in this last year?
    Dr. Mitchell. Thank you for that question.
    We remain active with the U.S.-EU Energy Council. My 
understanding is that we are working on dates for a meeting in 
the spring.
    Senator Shaheen. So there has not been a meeting so far 
this year?
    Dr. Mitchell. Not that I am aware of. There has been lower 
level coordination, but the----
    Senator Shaheen. No. Mr. McCarrick, has there been a 
meeting this year?
    Mr. McCarrick. No. As the Secretary was saying, there has 
been lower level coordination. We are looking at hopefully a Q1 
meeting.
    Senator Shaheen. And do we have an agenda yet for that 
meeting, and are there items that you are particularly 
concerned that we need to address as part of any discussions?
    Mr. McCarrick. I think it would build on the energy 
security themes that we are talking about. These discussions 
have always been--although I was not there, I have been told 
that discussions are very, very fruitful in terms of getting 
people together and fortifying our allies to stay the course. 
So we are very, very focused on trying to set that up for the 
first quarter of next year.
    Senator Shaheen. Great.
    Dr. Mitchell, you talked about the formation of the new 
supervisory board for Naftogaz in Ukraine. It was my 
understanding that the recent members of the board had resigned 
because of political meddling. Are you referring to that board, 
to a new board? Can you tell me what the status is currently?
    Dr. Mitchell. Thanks for the question.
    Yes, that is correct. There was a mass resignation. I am 
referring to the more recent reformulation under U.S. and IMF 
pressure. The Ukrainians moved to set up a new supervisory 
board that has a majority of independent experts. I want to be 
clear that while that is very positive, we have yet to see the 
Ukrainians sign and commit to this. So we continue to keep up 
the pressure, raise this in our meetings with Ukrainians.
    I think more broadly, if I could comment on the reform 
landscape more broadly, we are very concerned about steps 
backward, and this is something that Senator Murphy raised as 
well, particularly the reluctance to create an independent 
anticorruption court and in recent weeks, attempts to 
politicize and move against the leadership of NABU, the 
anticorruption agency.
    Mr. McCarrick. Just to clarify real quick, the board is 
like a slate, and all we are waiting for is for somebody to 
sign it. And once that is enacted, the board can move hopefully 
swiftly to enact some of the reforms needed such as unbundling. 
It is a very big issue. So we need to see continued progress, 
appointing the board and making it official would be a very 
good step.
    Senator Shaheen. So what do we think accounts for the 
backsliding that we are seeing?
    Dr. Mitchell. Well, I would say bearing in mind the scale 
of progress that the Ukrainians have made, if you look at post-
communist societies, that transition is one that is very 
difficult even in the best of circumstances. I think the 
Ukrainians have enacted an extraordinarily upwardly ambitious 
reform agenda under conditions of geopolitical duress with a 
war on. I think that is a big part of it. I think also 
politically----
    Senator Shaheen. But just to put a finer point on that, so 
are you talking about public pressure that is objecting to some 
of the reforms that have been put in place?
    Dr. Mitchell. I would say there are two things. First, it 
is geopolitical and military. There is a war on, and I think 
that has a tendency to create a pressurized environment 
politically.
    I think, secondly, at the political level, there is always 
a temptation for national leadership to prioritize reelection 
over the hard decisions that are needed for reform.
    Senator Shaheen. No, that never happens in democracies. 
[Laughter.]
    Dr. Mitchell. In this case, I think particularly as Ukraine 
moves beyond the low-hanging fruits of reform and more towards 
the deeper structural, these are difficult and painful reforms 
even in the best of circumstances. I think the fact that the 
Ukrainians have kept up that pace is something we should 
continue to recognize as long as in our messaging we are 
keeping up the drumbeat of support for continued reform.
    Senator Shaheen. So do we think Naftogaz is in danger of 
losing support from the IMF and the EU if they do not put these 
anticorruption measures in place, if they do not get the slate 
of members signed?
    Dr. Mitchell. Well, if the Ukrainians are not able to make 
decisive progress on both the anticorruption court and on the 
issue of gas tariffs, I think they very much jeopardize IMF 
funding. And this is a point that we have made repeatedly. The 
Ukrainians have proven very responsive to our concerns when we 
have raised them. So we will see what they do.
    Senator Shaheen. You both mentioned the Krk Island-LNG 
terminal in Croatia. I have heard recently that there are some 
real obstacles to getting that moving forward. I do not know. 
Mr. McCarrick, I guess I should ask you. Do we know what the 
status of that is and what the challenges are and whether we 
think there are any huge obstacles to actually getting it put 
in place?
    Mr. McCarrick. We have been continuing to provide them with 
technical support. The message that I have received is that we 
need to provide some more political support. As with a lot of 
these issues----
    Senator Shaheen. What do you mean by political support?
    Mr. McCarrick. More active engagement by the State 
Department with Croatia to continue to move it along is the 
best way I can put that.
    Senator Shaheen. I am very concerned--and I know some other 
members of this committee are as well--about increased Russian 
influence in the Balkans and the potential for some of the 
countries there to withstand the pressure that they are going 
to be getting. And obviously, energy security is a critical 
piece of that. So what more should we be doing? Is the State 
Department looking at ramping up that kind of political support 
for this project, or are there things that this committee can 
do to make it clear that we think it is very important and we 
want to be as supportive as possible?
    Mr. McCarrick. I have had members of my team over there, 
and they have been reporting back that we need to send some 
more senior folks over there. And so we are planning that 
travel for Q1 of next year.
    Dr. Mitchell. And if I could just add to that, Senator, we 
did have a team there in November, and we continue to urge at 
all levels, I mean, all the way up to the president, the 
criticality of Krk Island. Unlike in the Baltic, where you have 
now two, one Polish, one Lithuanian, this is really our only 
bet at present in the Adriatic.
    What is needed specifically--I mean, our focus is on 
technical and financial support kind of on one level and then 
the diplomatic and political. I think the technical and 
financial is primarily about getting the legal framework, and 
especially the export tariff regime is absolutely critical 
because without that, with tariffs being as high as they are, 
the ability to take LNG and get it into the rest of the region 
is impeded.
    On the political level, I think it is about continually 
raising this with the Croats and their neighbors, which kind of 
also trickles back down and speaks to the issue of tariffs I 
think is really the most critical.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Young?
    Senator Young. I want to thank the chairman for holding 
this hearing and welcoming me, someone who is not a member of 
this subcommittee, so that I can ask some questions of our 
esteemed witnesses here.
    Secretary Mitchell, in your testimony you say that energy 
security of our allies is a fundamental U.S. national interest. 
You also say the administration is pursuing a European energy 
security strategy.
    So I understand that the administration is soon going to be 
producing their national security strategy and making that 
public.
    Given the importance of energy to our international 
security and our domestic prosperity, will energy security 
feature prominently in this new national security strategy?
    Dr. Mitchell. Thank you for that question, Senator Young. 
And it is good to see you again.
    It does figure prominently, and the national security 
strategy that has been put forward emphasizes a three-part 
approach to energy as it relates to U.S. foreign policy, those 
three tenets being open markets, to promote exports, and the 
energy security of U.S. allies. The third of those planks is 
the umbrella for the diversification of fuel types, countries 
of origin, and routes that are the emphasis of my remarks 
today.
    Senator Young. Okay. Very good.
    I noted recently in the news that Russian ministers were 
visiting with the Saudis to discuss oil markets and coordinate 
some of their efforts, the Russian production efforts, with 
OPEC. That has been tried before, and we will see whether or 
not anyone blinks as market forces continue to influence their 
decision-making.
    But that reminds us that what we are dealing with here, as 
we think about European energy security, is oftentimes--I mean, 
there are global forces that dictate these prices in addition 
to the regional forces.
    So is the administration developing a national energy 
security strategy to cover all regions, not just Europe, with 
this in mind?
    Dr. Mitchell. Thank you for the question.
    And let me start by saying that as we know, we are talking 
about, with oil and gas, fungible commodities. The Russian 
Federation I think in its foreign policy and use of energy as a 
political weapon has suffered disproportionately from the low 
price environment. And so I would expect to see continued 
attempts at coordination with other suppliers. I think the 
Russian role as a not stabilizing presence in many parts of the 
Middle East can also be understood partly through that 
geopolitical lens and vis-a-vis Iran.
    I think with regard to the strategy that you are asking 
about, the national security strategy that has been drafted 
does emphasize energy security. There is a European component 
of that, but the three broad tenets of open markets, promoting 
exports, and ensuring the energy security of allies relates to 
the world as a whole and not just to Europe.
    Mr. McCarrick. Secretary Mitchell--if I might, Senator 
Young.
    Senator Young. Please.
    Mr. McCarrick. We have been working--the State Department, 
the White House through the interagency has been working on a 
macro international energy strategy that will be applicable 
both in terms of regions and in terms of supply. So that will 
be coming out shortly.
    Senator Young. Okay. Well, I will look forward to that 
being published. Do you anticipate in the next few weeks or 
couple of months?
    Mr. McCarrick. It is in the interagency.
    Senator Young. Okay. I will try and figure out what that 
means later on.
    Let me move on to something else. Russia has demonstrated 
the will and capacity, as you have indicated in your prepared 
testimony, to use energy as a tool of coercion and intimidation 
against our allies and partners. You cite, one of you, a 
Swedish study that found 55 instances in which Russia cut off 
energy for political purposes in only 14 years. Yet, you also 
note that 11 EU member states continue to rely on Russia for 
more than 75 percent of annual gas imports.
    On November 1st, I convened a subcommittee hearing on 
energy and international development. Among other witnesses was 
a fellow Hoosier, Paul Mitchell, of Indiana's Energy Systems 
Network. And he testified at that hearing that innovation 
exists in our private sector which can help create business 
opportunities for Americans and also further our national 
security interests. So there is a lot of innovation in this 
energy space.
    And so I guess my question to you is how can we better 
utilize American energy resources and private sector innovation 
to help our allies and partners reduce or even eliminate their 
vulnerability to Moscow's coercive use of energy.
    Mr. McCarrick. I think that is a great question, and I 
think the way we do that is, first of all, domestically. 
Obviously, the fracking boom has been very good for our country 
and increases the possibility of us exporting LNG.
    The technology aspect is fascinating to me because I just 
got back from a conference in Portugal, and the companies and 
the innovations in LNG right now are moving at a breakneck, 
speed and they are reducing the costs of both gasification, 
transportation, regasification. It is to the point where 
American LNG is going to be evermore competitive going forward.
    As for how we help our allies, I think one of the things we 
can do is increase supply, and we are looking at various 
projects around the world, the Western Hemisphere, as to how we 
can export our technologies and help other countries develop 
their natural resources, which again would add supply to the 
market and reduce the influence of actors like OPEC or Russia.
    Senator Young. In light of what an economist would call a 
positive externality, in light of the benefits to the public 
that are not captured in the price of our energy markets, are 
there things that our government should be doing at the federal 
level or perhaps things we should stop doing to facilitate yet 
more innovation in this space to yet further increase the 
energy security of our partners and allies in Europe and beyond 
perhaps?
    Dr. Mitchell. If I could, Senator, I think that is a very 
important question. And we have, in the case of Europe with 
Russia next door, a player, Moscow, that is very well-versed in 
the use of energy as a weapon, which is politics. And I think 
the best answer to that and what the U.S. has traditionally 
promoted and continues to promote is the market, the market as 
the best option for diversifying European energy. And 
consistent with that, the national security strategy, in 
emphasizing as the second tenet, promoting exports I think is 
really important, LNG, being perhaps foremost, but I would add 
renewables. The State Department is coordinating with Commerce 
to look at how we can support this plank of the strategy in a 
more fulsome way in the days ahead. Innovation in the private 
sector--I think encouraging that here domestically.
    But also on the European side, to your question 
specifically, I think when you look at things like 
regasification and renewables in terms of how do we help at the 
government level, I am not a great believer that government 
can, at the end of the day, provide a solution better than 
markets. But I think where we can help is where our businesses 
face barriers operating in Europe, and that can come in the 
form of e-regulations, national regulations, but also in 
Central and Eastern Europe some of the rule of law issues that 
can impede a level playing field.
    So we have to advocate in our diplomacy for a level playing 
field. We have to speak up on regulations that 
disproportionately penalize our companies. And I think we have 
to encourage allies, including some of our closest allies, who 
have ongoing business disputes that may be partly political in 
nature to quickly and amicably resolve those cases so that 
there is not a chilling effect on U.S. investment more broadly.
    Senator Young. I see that my time has run over. I just 
would conclude, thanking both of you for your testimony and 
invite Mr. McCarrick to Indiana to visit with Energy Systems 
Network because they have specialized for a number of years now 
in working on these public-private partnerships tying 
innovation to different governmental and nongovernmental 
entities to solve challenging global problems like this. Is 
this an invitation you can accept?
    Mr. McCarrick. I look forward to hearing more about it. My 
very first internship was in the private sector initiatives 
office for President Reagan. So I am very well aware of, since 
college, public-private partnerships working well.
    Senator Young. I am grateful for your consideration.
    Senator Johnson. That sounds like a definite maybe.
    Senator Young. Yes, that is right. [Laughter.]
    Senator Johnson. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimony.
    I want to follow up on Senator Young's last line of 
questioning. And, Secretary McCarrick, energy is a global 
market. Is that fair to say?
    Mr. McCarrick. Mostly yes.
    Senator Menendez. So unlike the Russians where they may 
very well direct energy to a location for the purposes of their 
politics beyond what is the best economic factor that they 
could achieve, to the extent that we are producing more energy, 
we are producing it in the context of exporting it in a global 
market. We do not direct our energy. Is that fair to say?
    Mr. McCarrick. Correct.
    Senator Menendez. So when we talk about creating more 
energy for exportation, it seems to me that the realities of 
affecting places like Ukraine, where we would have an interest 
to offset the challenges of Russia and what they seek to do to 
bring Ukraine to its knees, at the end of the day, we need a 
more directed effort. I sometimes wonder whether or not--I know 
that ardent believers of the marketplace believe that 
everything can be resolved through it.
    But it seems to me that if you are going to say that we are 
going to create more energy beyond for domestic consumption for 
exportation, that then, yes, you will add to the global supply, 
but whoever is the biggest buyer in the global supply will take 
that supply. So if Japan needs more LNG, maybe they will be the 
higher bidder. It will not go to Ukraine. It will not go to 
other places we care about.
    So do we ever think about if we are going to use energy as 
a way to not only create opportunities for jobs here at home--
do we ever think about using energy in a way that also matches 
our national interests and national security interests?
    Mr. McCarrick. Well, I think we have in many ways.
    Senator Menendez. Outside of putting it in the greater 
marketplace.
    Mr. McCarrick. No, understood. I guess what I look at is 
the efforts the U.S. Government has had in terms of convincing 
European countries to open gas terminals and keeping their 
options open and making sure that the options are there for 
them to receive LNG from us.
    And we have also contributed efforts to increase the 
interconnectivity of Europe through pipelines and also through 
trying to supply them with gas from other sources such as the 
Southern Gas Corridor.
    Senator Menendez. Let me ask you this. As you are, I am 
sure, both no doubt keenly aware, some of our most stalwart 
European partners have expressed concerns about the law that 
Congress passed earlier this year, leveraging sanctions against 
Russia for its ongoing occupation of Ukraine, for its 
interference in our elections, for its continuing human rights 
abuses, among other things. These included sectoral sanctions 
against Russia energy development projects.
    Now, I am sure you are also both aware that the United 
States and its allies have not always started seeing eye to eye 
on the question of sanctions. But when the United States has 
led efforts to financially isolate and target destabilizing 
actors, ultimately our allies, in pursuit of shared security 
concerns, have joined our efforts, and that makes them more 
stronger and effective.
    What steps has the administration taken to specifically 
implement provisions in the Countering America's Adversaries 
Through Sanctions Act that has notably targeted Russian energy 
sectors?
    Dr. Mitchell. If I may, Senator. Thank you for that 
question. It is a very important issue and one that I have 
focused a lot of attention to, as has the Secretary.
    With regard to CAATSA specifically, we are implementing. We 
have issued public guidance on sections 221, 225, and 232.
    I think it was appropriate and worthwhile that the 
legislation, particularly on 232 in energy, directed the State 
Department to consult extensively with allies. I think that was 
wise in light of the archipelago of sanctions that we have in 
various efforts, not only vis-a-vis Russia, but also Iran, 
where we are working with European allies to ensure the 
effectiveness of those sanctions. We took that very seriously 
and spent a lot of time talking to and listening to our allies 
and to their concerns.
    We are currently reviewing some transactions, and I do not 
want to comment on those publicly. I can say that we take it 
very seriously. We have sent some initial reports to Congress. 
I know we are working on a Ukraine-related report that is 
coming up for January.
    I would simply say that sanctions are a tool, and to be 
effective, they have to be used wisely. It is important that 
they not hurt our allies more than they do our rivals or 
competitors, and also that as has happened in the past with 
other families of sanctions, the guidance, how this is 
executed, evolves with the realities.
    Senator Menendez. I get all of that. I get all of that. I 
have been the architect of the greatest number of sanctions in 
the Congress over the course of 25 years. So I get that.
    My question is--and the consultations or something that we 
build into the law, absolutely necessary. But are we going to 
be hearing within the near future about some specific actions 
taken against the Russian energy sector as contemplated in the 
law? Just give me a yes or no and give me a time frame. I am 
not even asking you which ones.
    Dr. Mitchell. We are reviewing transactions now.
    Senator Menendez. That does not mean anything to me.
    So at some point, part of the oversight of Congress is 
going to be what are you doing to actually pursue sanctions in 
this regard. The administration seems to have a reticence as it 
relates to sanctions on Russia. So there is no use of Congress 
passing legislation to enable the administration to get Russia 
to move in a different direction if there is a reticence in 
doing so. So I am looking forward to seeing when you actually 
do something.
    Let me ask you this. There have been some interesting 
discoveries and limited development of energy resources in the 
eastern Mediterranean, Cyprus, Israel, among others, who have 
been reliable U.S. allies and partners. What prospects do you 
assess for further development of energy resources in the 
eastern Mediterranean, and how can that change the dynamic for 
Europe, for example, if we can find the ways in which both the 
development of those energy sources and its transmission or its 
pipelines can be achieved? Do you see that as an opportunity?
    Dr. Mitchell. Thank you for the question.
    Yes, I do see that as an opportunity. We followed it 
closely. It is potentially promising and could be part of that 
broader mix of sources for Europe. The political dynamic, in 
the case of Cyprus specifically, I think deserves most of our 
attention on that issue. We recognize the right to develop the 
resources. We also continue to hold the position that any 
resources that are developed should be shared equitably in the 
case of Cyprus between the two communities. And we continue to 
encourage both sides----
    Senator Menendez. Between the two communities, meaning the 
occupied part of Cyprus?
    Dr. Mitchell. Well, we continue to encourage the 
development of a bizonal, bicommunal federation.
    Senator Menendez. I know. This is the only country in the 
European Union that is part of the European Union that has a 
sovereign identity which we somehow would suggest that their 
energy development can be dictated by countries outside of its 
sovereign identity. Forget about Cyprus for the moment. That is 
a slippery slope. If you are going to let Turkey determine 
what, in fact, Cyprus can or cannot do in the development of 
its resources in that whole part of the eastern Mediterranean--
not that Turkey has proven itself lately to be a particularly 
great ally of the United States. So I hope that that is not the 
State Department's philosophy as it relates to how that 
development takes place.
    Dr. Mitchell. Well, thank you for your concern, and I share 
the concern. I understand the point that you are making.
    I would just say that any sustainable, long-term 
development of those resources will require a political 
component. And again, we continue to say that any resources 
that are developed should be shared equitably, and we encourage 
both sides to reduce tensions and define a common future.
    Senator Menendez. I am all for resolving tensions and 
defining a common future, but I am also not for having a 
country who is part of the European Union and has all of the 
other relationships and has been a relatively good ally of the 
United States, particularly in critical moments, to be forced 
to determine that their sovereignty is somehow beholden to some 
other country. We would not accept that. I do not know any 
other country that would.
    So, anyhow, I look forward to working with you on those 
issues.
    Senator Johnson. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    This is on Nord Stream 2, the pipeline, and whoever feels 
best qualified to answer.
    You know, Russia continues to undermine peace and security 
in Europe through a variety of mechanisms, including the use of 
energy as a weapon, as you just mentioned, Secretary Mitchell. 
Russia is Europe's main energy supplier. Russia also has 
significant ownership of Europe's energy infrastructure, 
including pipelines, distribution, storage facilities. The 
European Union members have identified the risks that have been 
associated with Europe's reliance on Russian energy and have 
been moving toward a more unified EU energy policy.
    We in the United States have been working closely with our 
partners in Europe to promote energy security through energy 
diversification in the types of energy, the source of energy, 
and the routes of energy flow to Europe.
    But despite the important work, I am still very much 
concerned about the recent actions in Europe demonstrate a lack 
of seriousness, in my opinion, in addressing Europe's reliance 
on Russia, and the prime example is the Nord Stream 2 pipeline. 
The proposed pipeline would run from Russia, under the Baltic 
Sea directly to Germany. Nord Stream 2 would follow the path of 
the original Nord Stream pathway and would double the capacity 
of Russia's gas exports to Germany. Russia, with assistance of 
five European energy companies, is working to make Europe more 
reliant on Russian gas by undermining the diversification of 
Europe's energy resources, supplies, and routes.
    So several European countries have raised concerns, as have 
I, about Nord Stream 2. I think it is undercutting sanctions on 
Russia, increased Russia's political leverage over Eastern 
Europe. In addition, it is estimated that pipeline would cost 
Ukraine about $2 billion a year in natural gas transit fees.
    In the legislation, Countering America's Adversaries 
Through Sanctions Act, the United States reaffirmed these 
concerns. The law states that it is the policy of the United 
States to continue to oppose the Nord Stream 2 pipeline, given 
its detrimental impacts on the European Union's energy 
security, on gas market development in Central and Eastern 
Europe, and on energy reforms in Ukraine.
    The law also imposed sanctions on U.S. and foreign entities 
who invest or engage in trade that enhances Russia's ability to 
construct energy export pipelines.
    So can you talk a little bit about the administration, what 
plans the administration may have to impose sanctions on 
individuals who are investing in Russia's energy export 
pipelines projects such as Nord Stream 2 and what efforts the 
administration is taking to demonstrate the United States 
continues to oppose Nord Stream 2?
    Dr. Mitchell. Thank you for the question, Senator Barrasso. 
And let me say that I share you concern about Nord Stream 2. 
And it has been a longstanding U.S. policy and interest to 
fight this project as something that is not in the interests of 
European energy security.
    The CAATSA legislation--section 232 that bears upon this 
explicitly called on the State Department to coordinate closely 
with allies. And I would note that that set this section apart 
from 231 by my reading. The Congress went out of its way to 
direct us to keep in mind the concerns of allies. So I think 
our view has been to see that sanctions broadly as a set of 
tools, which we have in place vis-a-vis Russia and Iran and 
elsewhere, really require close coordination with allies. And 
what we did not want to do, in keeping what we understood to be 
the spirit of the legislation, we did not want to open up new 
gaps between ourselves and allies at a moment when we need to 
hold ranks on sanctions across the board.
    Having said that, our position continues to be to raise 
repeatedly and very strongly with our European allies that Nord 
Stream 2 is, as Secretary Tillerson said 2 weeks ago, an unwise 
project. The same with Turk Stream. It circumvents Ukraine, all 
the reasons that you have given, the loss of revenue, the 
Baltic States, Poland, et cetera. Again, this is a political 
rather than a commercial project.
    What we are doing on that specifically right now, we are 
speaking up. So myself and the Secretary on a regular basis 
raise this with German counterparts. We raise this at the EU 
level. Again, I think the formation of the new German 
Government gives us an opportunity to raise this in a way that 
calls on the Germans to show responsibility in a European 
context.
    We are encouraging EU action both through the existing 
framework of the Third Energy Package but also the revision of 
the EU gas directive, which is directly aimed at Nord Stream 2, 
and encouraging member state action working with the Danes and 
others to look at how Nord Stream 2 would affect their 
interests and their territory.
    We are also encouraging competing projects, Baltic Pipe, 
IPL, others.
    I think broadly on CAATSA, because it is still very early, 
I think it is premature to make a determination about Nord 
Stream 2 absent contractual information because that is what 
the guidance that we have in place says. But I can simply say 
at this point that it is a concern. We raise it on a regular 
basis, and we are looking at it very closely.
    Senator Barrasso. You mentioned Ukraine because they are 
traditionally very dependent on Russian natural gas. Russia has 
continually used that dependence as a weapon to intimidate, to 
influence, to coerce. The Government of Ukraine has been trying 
to take some steps to reform its energy sector to improve 
energy security. But let us face it. Despite having incredible 
resources, the energy sector continues to face a lot of 
challenges and is really performing below potential in Ukraine.
    Can you talk about efforts the State Department is 
currently taking to help Ukraine increase its energy security 
and its reliability and their efficiency? What can we do there?
    Dr. Mitchell. Yes, sir. Thank you for that question. That 
is a very important issue and a priority for us at the bureau.
    Let me just say that the political and geopolitical future 
of Ukraine is intimately linked to how well we succeed in this 
task--we being the United States, Europe, and Ukraine. We are 
working now on a Ukraine energy security plan as called for 
under section 257 of CAATSA. That is underway now. A report is 
due to Congress in January. We are jointly developing that 
strategy in coordination and consultation with the Ukrainian 
Government.
    I do not want to prejudge what will be in that strategy, 
but let me just say that broadly our focus continues to be on 
two things with the Ukrainians on energy: one, to use our 
assistance programs to encourage reform of the Ukrainian energy 
sector, diversify sources, fight corruption, which is one of 
the biggest impediments to Ukraine unlocking its energy 
potential, and integrating with European markets; and then 
secondly, technical support to boost domestic production, which 
I think the Ukrainians have made tremendous headway on since 
2014, and to increase energy efficiency.
    We have been encouraged by some of the most recent reforms 
particularly the move towards a more independent Naftogaz 
supervisory board. We want to see that actually consummated and 
acted upon. And we continue to keep up the messaging on gas 
tariffs. That is an ongoing process. It is something that I 
raise on a regular basis, that the Secretary raises on a 
regular basis. And I think as you will see in our Ukrainian 
energy security plan that we present to Congress in January, it 
is something we take very seriously.
    Senator Barrasso. Mr. Chairman, do I have time for one more 
question?
    Senator Johnson. Sure.
    Senator Barrasso. Okay, thanks.
    I am going to talk about Spain a little bit. They have a 
potential to greatly reduce Europe's reliance on Russian gas. 
The LNG terminals and gas pipelines from Africa have a combined 
import capacity of about 80 billion cubic meters of gas per 
year for Spain. This represents three times Spain's annual 
consumption. So Spain is not importing the full capacity 
because of the inability to then transport it to other areas in 
Europe. There is currently insufficient pipeline capacity to 
transport that natural gas from Spain to Eastern and 
Southeastern Europe. Europe has been working on adding some 
interconnectors and reverse flow capabilities from its 
pipelines in order to transport natural gas to countries that 
are at risk of being cut off by Russia. Progress has been 
limited.
    Could you talk a little bit about, since Spain has this 
greater import capacity than the volume of natural gas they 
consume, what efforts are being taken to allow this excess 
capacity to be used in other parts of Europe, particularly the 
more Russian-dependent countries?
    Dr. Mitchell. Absolutely, and I am glad that you raised 
that, Senator. It is not a subject that attracts attention very 
often but it absolutely critical. All you have to do is look at 
a map of LNG import terminals in Europe to see the overwhelming 
majority of Europe's LNG absorption capacity is Spanish. And 
the absence of sufficiently robust infrastructure from Spain 
into France really is a missing link in the overall puzzle.
    I think part of this also reflects the broader problem that 
the United States has encouraged our allies for a long time to 
get at, which is, again looking at a map, the infrastructure is 
overwhelmingly east to west. There is very little north-south. 
There is very little intra-European. The United States 
continues to raise that broadly with our allies.
    I think with regard to this issue specifically, we would 
like to see the EU list Spanish-French interconnectors as a 
Project of Common Interest. And that is where our diplomacy can 
help. It is something that I think in the past the United 
States has occasionally raised but not been assertive about, 
but it is something that we can continue to raise in the days 
ahead. And I appreciate you raising it. I think it is a 
considerable impediment to European energy security.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. McCarrick. Actually just to echo the Secretary's 
thoughts, I was just in Portugal 2 weeks ago--so include 
Portugal in that framework--and had long conversations with 
Ambassador Glass about combining what Portugal has and Spain 
has and connecting it with Europe because it is essential. 
There is a lot of capacity in those terminals that is not being 
used right now.
    Senator Barrasso. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Johnson. Thank you, Senator Barrasso.
    I really have just one further line of questioning, but it 
is going to go right back to what I was attempting to do in my 
first line of questioning.
    Secretary McCarrick, you mentioned in your testimony that 
Lithuania, by building the terminal there, was able then to 
negotiate a 20 percent reduction in its price of natural gas 
from Russia. And I realize this is not a direct linear 
relationship here, but 20 percent of =365 billion would be 
about =73 billion of savings if you diversify and you can hold 
your suppliers accountable and get a better price.
    So I am an accountant. I come from the private sector. It 
just seems obvious to me that what you want to do is increase 
the number of suppliers to provide you with that bargaining 
power. And that is what I find so puzzling about this entire 
conversation. It is just so obvious that Europe has to 
diversify its supply chain, which means it has to diversify its 
delivery systems.
    What is the stumbling block? I am not a real good diplomat 
here. We speak in diplomatic terms, but I mean, I want to know 
what and/or who, what nation is the stumbling block to actually 
having this occur? Either one of you.
    Mr. McCarrick. I think it is a combination of factors.
    Senator Johnson. So start with the priority. What is the 
biggest stumbling block and then kind of go on down, list the 
facts.
    Mr. McCarrick. Some of the legacy regulatory issues have 
impeded the growth of this. Some of it is political, I believe, 
in nature.
    Senator Johnson. So you think that is the top one, legacy 
regulatory impediments.
    Mr. McCarrick. Indeed.
    Senator Johnson. Can you be specific on those?
    Mr. McCarrick. I can provide you with examples later. I do 
not have them right in front of me right now.
    [The information referred to above follows:]


              Mr. McCarrick's Response to Senator Johnson

    U.S. exports of liquefied natural gas (LNG) were unnecessarily 
delayed over the past eight years due to legacy regulatory impediments 
established by the previous Administration. For example, the Federal 
Energy Regulatory Commission (FERC) issued Draft National Environmental 
Policy Act (NEPA) guidance that created additional requirements for LNG 
export terminal projects. Moreover, not only has the FERC process seen 
delays, approvals from other federal agencies also experienced delays, 
even after passage of the Energy Policy Act of 2005 that was 
specifically intended to expedite the approval process and prevent any 
unnecessary delays. A 2012 study conducted by the Interstate Natural 
Gas Association of America (INGAA) Foundation shows that federal 
approvals for natural gas related infrastructure saw a nearly 400% 
increase in delays. And a 2013 Government Accountability Office (GAO) 
report found that the Department of Energy's review of export 
applications was not a standardized process, leading to uncertainty for 
industry.
    Lastly, the final decisions for multiple LNG projects during the 
previous Administration, including terminals in Oregon and Texas, were 
delayed or denied. The delay or denial of these approvals hampered our 
ability to help our allies and partners diversify their energy sources 
and to promote and more free and fair global energy market.


    Senator Johnson. Okay. We will keep going.
    Mr. McCarrick. I would also say political issues. There are 
certain views from certain countries in Europe that gas is not 
as clean as we think it is, and so they are looking for 
different sources in terms of fueling.
    Senator Johnson. Which would be what?
    Mr. McCarrick. Well, wind and solar.
    Senator Johnson. But defining that is enormously----
    Mr. McCarrick. Again, the French are very anti-fracking, 
and so their nature is to say, well, we are not going to take 
gas from the U.S. because it is fracked gas.
    Senator Johnson [continuing]. Is that also the impediment 
to pipelines through France from Spain? They are so dependent 
on nuclear power.
    Mr. McCarrick. I have not looked into the issue, but I 
imagine, yes.
    Dr. Mitchell. If I could just add to that, Senator Johnson. 
I think you are raising in many ways the key issue. And if I 
had to rank the obstacles, I would just put a huge one at the 
very top, and it is overwhelmingly political. And I think it is 
the impediment that large Western European member states and 
particularly Germany.
    Senator Johnson. There we go. Is that not the elephant in 
the room?
    Dr. Mitchell. Absolutely.
    Senator Johnson. I think we should get that on the table so 
we understand that is where our diplomatic efforts have to 
reside and say, hey, if you want a safe and secure Europe, if 
we want to help out Ukraine, we need to get real here and we 
need to start investing more money. We have got to have the 
north-south corridors. We have got to be smart about this, and 
we have got to block Nord Stream 2 because that is going to be 
totally counter to what our efforts really need to be long-
term.
    Dr. Mitchell. I agree with that, and I would say Germany is 
a very important ally to the United States. But on energy 
security, Germany gets it wrong, and it gets it wrong in a way 
that hurts other EU and NATO member states both financially and 
geopolitically.
    I would say that in the case of Germany--and I could list a 
few other countries primarily in Western Europe--the countries 
that are most eager to phase out nuclear, to prohibit shale, 
that frown on coal, that fight projects like the Three Seas 
initiative, which is all about north-south infrastructure, are 
the same countries that are promoting projects like Nord Stream 
2.
    Senator Johnson. Well, we are probably going to be taking a 
trip over to Europe. Maybe you could help arrange a meeting 
with those individuals in Germany where we can make that point.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to just tie together in maybe one last question or 
two the discussions we have been having about whether or not 
traditional market approaches can work. One of the reasons that 
I am advocating for spending money on energy security and the 
way that we spend money on traditional defense security is that 
I am concerned that there is not a traditional market solution. 
And we have sort of teased at some of the reasons why I have 
that concern today, but I wanted to maybe wrap it all into one 
question.
    The first question is, to the extent, as Senator Menendez 
said, that we put LNG into a global market, will it go to 
Europe? We cannot as a policy matter tell that gas, that LNG, 
where to go. And you have raised a couple issues as to why it 
might not land there: one, tariff structures in Europe, and B, 
the fact that there are better prices in other parts of the 
world. So I would love you to tease that out a little bit more.
    And second, the market is distorted, as we have mentioned, 
by the Russians who put massive subsidy into maintaining their 
energy dominance over Europe. So even if we were able to solve 
some of these tariff issues, let us say, why would we believe 
that the Russians would not respond by making a substantial new 
investment or subsidy in the product that they are sending to 
make sure that they maintain that relationship with European 
energy states?
    Those seem to be two pretty significant issues, the fact 
that there are better markets for LNG, other places besides 
Europe right now, as we start to move stuff out of the United 
States, and that the Russians will always respond with subsidy 
unless we have the capacity to offer that same kind of subsidy. 
And when I say we, I mean the United States and Europe 
together.
    Dr. Mitchell. Thank you for that question, Senator. And I 
think you are raising an important issue.
    On the subject of LNG specifically, you are right that 
because this is a fungible commodity and it is going to follow 
price, most of it goes to Asia. And just to give the stat on 
that, it is, I think, 10 percent, so .3 bcma out of a total of 
3.2 bcma that the United States exports. Only that 10 percent 
goes to Europe.
    What I would say, though, is that where LNG makes the 
biggest near-term impact--and long-term it is potentially 
revolutionary both for our economy and for Europe in a 
geopolitical sense. Where it makes the biggest near-term impact 
is it changes the calculus particularly for small eastern 
countries when they go to negotiate a deal with Gazprom. If 
they have options, it changes everything. It gives them 
leverage that they did not have before. Gazprom loves to lock 
little Eastern European countries into straitjackets of long-
term contracts.
    If you have almost any other option, however much on the 
horizon it is, if there is an LNG terminal that is being 
completed, it dramatically changes the dynamic at the 
negotiating table. Lithuania is exhibit A. We want to see an 
exhibit B, C, D, E, F across the region. And in that sense, the 
fact that it is going to Asia, while that may be the central 
fact from a commercial standpoint, geopolitically there is a 
ripple effect to that. And that is part of why we want to keep 
encouraging it.
    I would say broadly that there is overwhelmingly a market 
solution for these things. I think the role of government I see 
as being primarily about removing barriers on our side and on 
the European side of the Atlantic. So on this side of the 
Atlantic, for example, we have not shown alacrity frankly until 
this administration in really working to remove some of the 
barriers in export licensing, for example, or overall 
willingness of the Federal Government to see LNG get onto the 
water. I think the previous administration, for a variety of 
reasons, was loathe to do that, and I think it has had a 
tremendously positive effect for this administration to 
accelerate those efforts.
    On the European side, I think encouraging the development 
of infrastructure is key. That is something that is primarily 
about diplomacy. I think government does have a role to play 
there when we are talking to allies. But ultimately it is going 
to come down to whether companies decide on a commercial basis 
to invest in projects. So I would argue that there is a role 
for government. I think it is primarily about diplomacy, and it 
is about removing barriers.
    Senator Murphy. Mr. McCarrick?
    Mr. McCarrick. The only thought I would add is, again, the 
technology aspects to this. The idea that there is no floor for 
Russian gas is probably a false narrative. The more competitive 
we can be in terms of LNG, the more we can drive down the 
markets and the more attractive we can make our product to the 
Europeans.
    I guess maybe I am brimming with optimism on the technology 
side of it because I just came from this conference where 
everybody was talking about reducing cost and doing it with 
advanced technologies. And so I would like to think that we can 
be evermore competitive going forward and really be an 
alternative to Russian gas.
    Senator Murphy. We constantly, over the course of my time 
in the Senate, have underestimated the lengths that Russia will 
go in order to protect its interests in and around its 
periphery. I hope that we do not underestimate what they will 
do and the subsidy they will provide in order to continue their 
energy dominance. And I hope that a clear-eyed calculation 
about what Russia will do will inform our policy going forward.
    Thank you very much.
    Senator Johnson. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    One of the concerns that I have about this conversation is 
that we have spent now an hour and a half talking about energy 
issues in Europe and not once has anyone mentioned energy 
efficiency and the demand side of energy. One of the reasons 
Ukraine has had so many energy issues is because they were the 
least efficient country in Europe in terms of using energy.
    So can one of you talk about what we are doing in any 
energy conversations to raise our interest in encouraging 
energy efficiency? And again, that is a place where U.S. 
companies have been at the forefront of developing off-the-
shelf technologies that address efficiency, whether it is in 
lighting, heating, whatever it is. And so I would hope that 
that is part of any conversation we are having with countries 
in Europe.
    Dr. Mitchell. Thank you for that question, Senator Shaheen. 
It is an absolutely crucial component, and it is one that in 
our diplomacy when dealing with European allies and partners on 
energy security, we do raise on a regular basis.
    Let me start with Eastern Europe, which I think you are 
right to highlight. In the case of Ukraine, energy efficiency 
could make all the difference, and even at the small margins, 
the outcomes are potentially dramatic. I do not want to preview 
too much of the Ukraine energy security strategy that we are 
putting together as part of CAATSA that will come to Congress 
in January, but I will just say that increasing energy 
efficiency is part of that second plank of our current approach 
in Ukraine, and it is something that we raise on a regular 
basis.
    The gains that the Ukrainians have made in the last few 
years on energy efficiency, both at the household level and in 
an aggregate sense, is really dramatic. And there are other 
cases in Central and Eastern Europe where encouraging that 
could do a lot of good.
    One of the ways that we encourage it in Europe as a whole 
is, as you say, with regard to U.S. technologies and renewables 
and I think broadly across the board in energy efficiency, the 
United States is a leader in developing technologies in this 
regard. We promote greater energy efficiency in Europe on a 
regular basis in conversations.
    But I think one of the ways that we can do this in the near 
term, there are a growing number of disputes in Europe that 
relate to U.S. companies. One very prominent case in Poland 
involves a U.S. company that operates in renewables that has a 
chilling effect on other U.S. companies who would look at 
Central and Eastern Europe. So I think we want to encourage our 
allies to make progress on cases that could have that chilling 
effect. There are barriers in many European countries that 
prevent U.S. technologies from operating on a level playing 
field, and so we want to make headway against those.
    I think this is consistent with the NSC's energy pillars, 
the open markets promoting exports. I think also just helping 
to reduce dependence on fossil fuel has been and always will be 
part of that mix. In particular, I think the U.S. engaging with 
Europe through IRENA, the International Renewables Energy 
Agency--we are currently working--the Department of State is 
working with Commerce to explore ideas for how we can better 
promote U.S. options in Europe in the realm of energy 
efficiency and renewables. And that is an ongoing process that 
I think, in support of the White House's NSS, could do a lot of 
good.
    Senator Shaheen. Well, I agree. And just to be clear, I am 
a big supporter of renewables, but I am really talking about 
the demand side, the efficiency side here, which is different 
than renewables. And I hope that that is part of every 
conversation that we are having.
    Also, in our military, we have seen the benefits that the 
U.S. military has gained from adopting some of these 
technologies and strategies, and I would hope we are sharing 
those as well.
    You mentioned CAATSA and the efforts under CAATSA. And 
Senator Menendez expressed his concern about how quickly we are 
implementing some of those provisions. As you are aware, I am 
sure, one of the provisions requires the administration to 
report to Congress by February on Russian oligarchs and their 
potential ties to the Kremlin's dealings. I hope we have your 
commitment today that we will see that report on time and with 
real substance.
    Dr. Mitchell. Yes, ma'am, you do.
    Senator Shaheen. Thank you.
    Can either one of you discuss whether the administration is 
considering using the secondary sanctions that are allowed to 
prevent the Kremlin from manipulating the energy sector?
    Dr. Mitchell. That is something that has been a subject of 
internal conversation. For reasons similar to those that I gave 
earlier, I am hesitant to speak too much publicly about where 
we are at on that.
    Senator Shaheen. Okay. You do not need to say any more. But 
let me just say I hope that that is under consideration, active 
consideration, because if it is not, I can assure you that I 
will come back--and I would bet other members of this committee 
will come back--and put that as a requirement that should be 
considered as we are looking at ways that we can influence and 
respond to the Kremlin's corrupt behavior.
    Mr. McCarrick. Can I make one point on sanctions real 
quick?
    Senator Shaheen. Sure.
    Mr. McCarrick. One of the things that Senator Menendez said 
was that if we are not sanctioning companies, we are not doing 
our job. But I think one of the things that we need to realize 
that sanctions have a chilling effect going forward. The 
companies are afraid to do business with Russia because they 
will be sanctioned going forward. So I think we need to focus 
that the sanctions are actually doing something that people are 
not seeing necessarily because the investment is not happening.
    Senator Shaheen. I hope that is the case. I think any kind 
of data that can indicate that that is in fact what is 
happening would be helpful.
    I just have a final question and that is around Turkey. As 
we have seen over the last year, President Erdogan and Turkey 
have moved closer to Russia and to Putin, and we have seen a 
lot of coverage of their S-400 missile defense system deal that 
Russia has provided to Turkey.
    But one other area has been in the energy sector, and they 
are talking about a pipeline across Turkey where the energy is 
not really going to go to Turkey.
    So do you have any theories about why Erdogan would be 
willing to cozy up to Putin to do this kind of a pipeline when 
Turkey does not seem to be getting any benefit?
    Dr. Mitchell. I do not have speculation to share with you 
on that matter specifically. I would be happy to look into it 
more closely and get back to you.
    But I will say broadly on Turkey that one of our greatest 
concerns right now is the pattern of behavior that we have seen 
in recent days, particularly with regard to the treatment of 
our locally employed staff, the detained Americans. It is a 
strategic relationship that is vital so we continue to work 
closely with the Turks as allies. And we continue to raise 
concerns in many areas, including S-400, which the Secretary 
has raised, I have raised. This is part of our ongoing 
conversation with the Turks and will continue to be.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Shaheen.
    One thing I do like to do is give the witnesses an 
opportunity just to either summarize your comments or maybe 
answer a question that was not asked. But I will start with 
you, Secretary McCarrick. Nothing?
    Mr. McCarrick. Nothing.
    Senator Johnson. Okay, that is fine.
    Secretary Mitchell?
    Dr. Mitchell. I might just try to end on an optimistic note 
that I think we are all well aware--and certainly you in this 
subcommittee are because you follow these issues for so long--
of the bleaker aspects of European energy security, the 
wintertime cutoffs, which continue to be an unfortunate 
reality. I would just say that, broadly, the picture is 
improving over time, in part because the United States 
continues to play a proactive role, but also because of the 
efforts of our European partners.
    If you went back to 2014 and the start of the Ukraine war 
and then you kind of fast forwarded to now and you looked back 
and you tried to kind of have a panoramic view of the 
situation, I think first and foremost the advent of LNG as an 
option--Senator Murphy, I understand your view and your 
concerns, but I think it continues to make a critical 
difference. The end of destination clauses has made a huge 
difference in creating better pricing. I mean, the uneven 
pricing structures where you get a vast disparity, almost 
double the amount that people are paying for energy consumption 
in Eastern Europe versus Western Europe. I think Ukraine is 
less vulnerable than it was. And as more options come on line 
in LNG and in other fields around Europe and also as the 
European Union hopefully continues to take seriously its 
obligations on the Third Energy Package, I think the trajectory 
is broadly positive. It is something that we have to be 
diligent about encouraging.
    Senator Johnson. Thank you, Secretary Mitchell.
    First of all, I could not agree more. It is amazing if you 
are a monopolist and all of a sudden you even have potential 
competition, how you might start modifying your behavior, much 
less actual competition. So the example of Lithuania is pretty 
powerful. So, again, it is obvious the direction we need to 
take and we need to make sure we can get rid of some of those 
impediments, the stumbling blocks.
    But, again, I want to thank the witnesses.
    I really want to thank my Senate colleagues here. This was 
a well-attended hearing. It just shows you how important this 
issue is.
    So, again, thank you for your service to the country.
    With that, the hearing record will remain open until 
Thursday, December 14th at 6:00 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

    Response to An Additional Question for the Record Submitted to 
             Dr. A. Wess Mitchell by Senator James E. Risch

        The European Union's Third Energy Package was an effort to 
        further open up the gas and electricity markets in the EU. 
        However, Nord Stream 2--and more importantly the companies 
        funding its construction--appear to be recreating an energy 
        monopoly over gas supply in Europe.

    Question 1.  Can you please provide a list of the companies funding 
the construction of Nord Stream 2? How do you see this consortium 
affecting competition in the European gas market?

    Answer. The five companies funding the construction of Nord Stream 
2 are Uniper (German), OMV (Austrian), Shell (Dutch), Wintershall 
Holding (German), and ENGIE (French). Nord Stream 2, if built, could 
affect the economic viability of other potential pipeline and 
interconnector projects within Europe as they would become less 
competitive. Nord Stream 2 would also affect competition in the gas 
market because it would allow Russia to bypass Ukraine as a transit 
route and tighten its dominance as a source of gas in much of central 
Europe, strengthening Gazprom's ability to dictate pricing. The Nord 
Stream 2 pipeline project is currently not under the EU Third Energy 
Package, though a proposed revision by the European Commission to 
update its Gas Directive would apply the Third Energy Package to Nord 
Stream 2. Were the Third Energy Package applied to the project, the 
European gas market could still be distorted due to the scale of Nord 
Stream 2 (55 bcma). If Third Energy Package third party access rules 
were applied and no third party actors besides Gazprom booked capacity, 
the project could still move 27.5 bcma in volume.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Dr. A. Wess Mitchell by Senator Edward J. Markey

Russia Filling a Diplomatic Vacuum in Middle East
        President Trump's unwillingness to put forward ambassadorial 
        nominees, to key countries such as Saudi Arabia and Egypt, has 
        signaled a diplomatic retreat from the Middle East and allowed 
        Russia's sphere of influence to grow. The visit in October by 
        Saudi King Salman to Russia, during which Gazprom and Saudi 
        Aramco signed a memorandum of understanding, and the December 
        11 talks between Russian President Vladimir Putin and Egypt's 
        President Abdel Fattah al-Sisi on, during which both sides 
        signed a $21 billion deal to start work on Egypt's Dabaa 
        nuclear power plant are good examples.

    Question 1.  Assistant Secretary Mitchell, are you concerned by 
Russia's relationship with Saudi Arabia? What do the Saudis hope to get 
out of a closer relationship with Russia? What is behind Russia's 
attempts to broaden its role as an energy supplier in the Middle East 
and Asia?

    Answer. Saudi Arabia is a strong partner of the United States, and 
the United States remains committed to the security and stability of 
the Gulf region. For decades, we have demonstrated this commitment 
through continued efforts to enhance our diplomatic relationships and 
build defense capacity across the region, particularly through 
promotion of security agreements, Foreign Military Sales, exercises, 
training, and exchanges.
    Russia is pursuing a more active foreign policy in the Middle East, 
and remains an important player in Asia. Putin has prioritized outreach 
in the Middle East to key powers such as Saudi Arabia and Iran to 
pursue commercial gain and assert Russia's ``great-power'' status. This 
often takes the form of playing a spoiler role, as Moscow is 
threatening to do in the Middle East, where it is complicating 
multilateral diplomatic initiatives aimed at conflict resolution.
    On October 5, King Salman became the first Saudi monarch to visit 
Russia. President Vladimir Putin hailed the visit as a ``landmark 
event.'' After the summit, Salman and Putin signed documents on energy, 
trade, and defense, and agreed to several billion dollars' worth of 
joint investment.
    Russia seeks additional markets for its energy, not only for 
political leverage, but for economic benefit. In June 2015, then-Deputy 
Crown Prince Mohammed bin Salman attended the annual St. Petersburg 
Economic Forum--the first time the prince became publically involved in 
energy issues according to press reports at the time--where he met with 
Putin.
    During the October 5 visit to Moscow by King Salman, Saudi Arabia's 
national oil company Aramco signed several energy-related memorandums 
of understanding (MOUs). The agreements were signed at the Saudi-Russia 
Investment Forum, jointly organized by the Saudi Arabian General 
Investment Authority (SAGIA), the Council of Saudi Chambers, and the 
Russian Direct Investment Fund (RDIF). One MOU, between Aramco and 
Russia's state-controlled gas company, Gazprom, calls for increased 
cooperation along the natural gas value chain, potentially including 
exploration, production, transmission, storage, or liquefied natural 
gas projects. Aramco also signed an MOU with Gazprom subsidiary Gazprom 
Neft, Russia's fourth largest oil producer, to cooperate on drilling 
and pumping technologies as well as research and development. Neither 
MOU is binding.
    These recent developments between Saudi Arabia and Russia are 
notable and demonstrate that Putin's sway in the Middle East remains on 
the upswing. The United States must closely monitor this trend and be 
more diligent than ever about cultivating and maintaining allies in the 
Gulf region.

    Question 2.  What are the terms of the deal between Gazprom and 
Saudi Aramco, and the deal between Russia and Egypt?

    Answer. On October 5, during a visit to Moscow by King Salman, 
Saudi Arabia's national oil company Aramco signed several energy-
related memorandums of understanding (MOUs). The agreements were signed 
at the Saudi-Russia Investment Forum, jointly organized by the Saudi 
Arabian General Investment Authority (SAGIA), the Council of Saudi 
Chambers, and the Russian Direct Investment Fund (RDIF). One MOU, 
between Aramco and Russia's state-controlled gas company Gazprom, calls 
for exploring ways to cooperate along the natural gas value chain, 
potentially including exploration, production, transmission, storage, 
or liquefied natural gas projects. Aramco also signed an MOU with 
Gazprom subsidiary Gazprom Neft, Russia's fourth-largest oil producer, 
to cooperate on drilling and pumping technologies as well as research 
and development. Neither MOU is binding.
    We understand on December 11, 2017, Director General of Russia's 
state-owned nuclear energy company Rosatom, Alexey Likhachev, and 
Egypt's Minister of Electricity and Renewable Energy, Mohamed Shaker, 
reportedly signed Notices to Proceed on contracts for the construction 
of the El Dabaa nuclear power plant during a visit to Egypt by 
President Putin.
    According to the press reporting, Rosatom will build four VVER-1200 
units of the El Dabaa plant in the Matrouh region on the Mediterranean 
coast, as well as supply nuclear fuel throughout the plant's entire 
operational lifetime, which could be more than 60 years. Rosatom will 
also conduct personnel training and will assist its Egyptian partners 
in the operation and maintenance of the El Dabaa plant for the first 10 
years of its operation. Russia will reportedly finance approximately 85 
percent of the project's total cost, through a 13-year, $25 billion 
loan at three percent interest.
Intermediate Nuclear Forces (INF)
        Russia has started trying to bend the rules of arms control 
        agreements such as the Intermediate Nuclear Forces (INF) Treaty 
        and Open Skies Treaty. Russia's trying to force the United 
        States and other parties to these agreements to acquiesce to 
        its wishes by allowing it to continue behaving in ways non-
        compliant with its obligations is an example of coercive 
        diplomacy.

    Question 3.  How can the United States push back against Russia's 
non-compliance with these treaties and build consensus amongst other 
participants and with our European allies to do the same?

    Answer. The administration takes its arms control obligations 
seriously and expects the same from Russia. This includes taking active 
measures to enforce compliance when other parties are in violation of 
their arms control obligations. The administration is pursuing 
diplomatic engagement with Russia to pressure it to return to 
compliance with its Treaty obligations, closely coordinating and 
sharing information with regional allies and partners. In concert with 
these diplomatic efforts, the administration is also pursuing economic 
and military response measures to impose costs on Russia for its 
ongoing violations and to place the United States in a stronger 
position to defend itself and its allies and partners should Russia 
fail to return to compliance.
Ground-launched Cruise Missile (GLCM)
        The Wall Street Journal reported November 16 that the Trump 
        administration has begun preliminary research on a new, road-
        mobile ground-launched cruise missile (GLCM) that if tested 
        would violate the treaty. The report also indicated that the 
        administration has informed Russia and NATO defense m[i]nisters 
        of the decision.

    Question 4.  On what basis does the administration believe that 
developing and possibly deploying a new U.S. GLCM will convince Russia 
to return to compliance with the INF Treaty?

    Answer. Since 2013, the United States has repeatedly sought to 
engage Russia to take meaningful steps to return to compliance; 
however, Russia has consistently declined to do so. The administration 
firmly believes the United States cannot stand still while the Russian 
Federation continues to violate the Treaty. While the United States 
will continue to pursue a diplomatic solution, we are also pursuing 
economic and military measures intended to pressure the Russian 
Federation to return to compliance. This includes a review of military 
options for conventional, ground-launched, intermediate-range missile 
systems, which would enable the United States to defend ourselves and 
our allies, should the Russian Federation not return to compliance. 
This step will not violate our INF Treaty obligations. We are also 
prepared to cease such research and development activities if the 
Russian Federation returns to full and verifiable compliance with its 
INF Treaty obligations.

    Question 5.  Doesn't this provide Putin a propaganda victory and a 
``legitimate'' reason to blame the U.S. for the collapse of the INF 
Treaty and begin deploying large numbers of illegal missiles without 
any constraints?

    Answer. The administration has been clear that the United States 
remains firmly committed to the INF Treaty, which has been a pillar of 
international security and stability since its inception. That 
commitment includes a strong willingness to enforce compliance when 
other parties violate their arms control obligations. Unfortunately, 
this pivotal agreement is under threat today. Despite repeated U.S. 
efforts to engage the Russian Federation on this issue, Russian 
officials have so far refused to discuss the violation in any 
meaningful way or refute the information provided by the United States. 
The administration is taking treaty compliant steps in order to 
preserve the Treaty and working closely with our allies and partners to 
make clear that it is up to Russia to take the next step to preserve 
the viability of the INF Treaty.

    Question 6.  How did our NATO allies react to the news that the 
United States plans to develop a new road-mobile GLCM that if deployed 
would necessarily be placed in Europe? To your knowledge, are there any 
NATO or East Asian allies that would allow the United States to base a 
new road-mobile ground-launched cruise missile on their territory? If 
the development of a new GLCM becomes a controversial issue within the 
alliance, wouldn't that play into Moscow's efforts to divide the 
alliance and take the spotlight off its violation?

    Answer. The Trump administration has worked very closely with our 
NATO and East Asian allies regarding Russia's violation of the INF 
Treaty to ensure we remain united in our response. Our allies are 
acutely aware of the threat posed by Russian intermediate-range strike 
capabilities and support U.S. efforts to preserve the viability of the 
INF Treaty. On December 15, the North Atlantic Council released a 
statement identifying a Russian missile system that raises serious 
concerns and urging Russia to address these concerns in a substantial 
and transparent way.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Mr. John McCarrick by Senator Edward J. Markey

        While Russia has been a negotiating partner in the 6-party 
        process, Russia has recently taken a more active role in the 
        North Korea nuclear crisis. Foreign Minister Lavrov said 
        December 8 that Moscow was prepared to try to mediate between 
        Washington and Pyongyang.
          This offer came on the heels of a report from Japan's Asia 
        Press International news agency on December 6 that the price of 
        diesel oil in North Korea was down 60 percent and the price of 
        gasoline had dropped 25 percent from early November due to 
        ``massive amounts'' of fuel flowing into North Korea from 
        Russia.

    Question 1. Has the Department of State been able to verify these 
reports that Russia has been supplying ``massive amounts'' of fuel to 
North Korea? How much fuel does Russia provide to North Korea?

    Answer. We have reviewed the Japan Asia Press International news 
agency's story alleging Russia is behind the surge of fuel supplies to 
North Korea. We have not seen indications Russian fuel supplies have 
increased through the border provinces, as the article alleges. 
Historically, Russia has been one of North Korea's two sources of 
refined petroleum products, through the Independent Petroleum 
Corporation (IPC), which the Treasury Department designated as a 
sanctioned entity under Executive Order 13722 on June 1, 2017. Since 
the institution of U.N. Security Council resolution 2375's quota on 
North Korea's imports of refined petroleum products on October 1, 2017, 
Russia has not submitted formal notification to the U.N. of refined 
product exports to North Korea. Moreover, to our knowledge, Russia does 
not currently supply North Korea with any crude oil.

    Question 2. As the international community places more pressure on 
China to cut off oil shipments to Pyongyang, could Russia fill the void 
and become the swing supplier to the regime? If China cuts off oil, 
will Russia step in?

    Answer. Russia has historically supplied refined petroleum products 
and crude oil to the Democratic People's Republic of Korea (DPRK). As a 
large exporter of both crude oil and refined petroleum products, Russia 
possesses the capacity to meet the DPRK's relatively small fuel 
consumption needs. Russia's ability to rapidly substitute for any 
reduction in or halt to Chinese crude oil supply, however, would likely 
contravene U.N. Security Council resolutions. Russia is bound by UNSCR 
2375 that obligates it to ship no more crude oil to DPRK than it did in 
the year prior to the September 11, 2017 passage of UNSCR 2375--
therefore, it legally cannot surge to provide more oil to DPRK than it 
has in the past year. Russia would face significant logistical and 
infrastructure hurdles if it tried to do so, though it would possess 
capacity to compensate with refined petroleum products. Rigorous 
implementation of existing U.N. Security Council resolutions 
restricting fuel supplied to DPRK, as well as sustained diplomatic 
engagement, will be vital to enforce any further reductions to the 
DPRK's petroleum imports.
    Question 3. Please give us a sense Russia's relationship with 
Pyongyang. What are Russia's strategic concerns regarding North Korea? 
Does Russia have unexplored levers of influence of the rogue regime?

    Answer. In general, Moscow shares China's reluctance to 
substantially increase pressure on the DPRK due to concerns about 
destabilizing Kim Jong Un's regime. Russia remains one of North Korea's 
principal economic enablers which helps ensure the survival of the 
regime, although China remains North Korea's principle economic 
pipeline and accounts for over 90 percent of DPRK trade. Even though 
Russia-DPRK bilateral trade has averaged little more than $100 million 
annually for over 20 years, Russia is the second largest destination, 
after China, for North Koreans working abroad. Remittances sent home 
provide a significant source of revenue for the DPRK regime. Russia's 
long-term Northeast Asia engagement includes talk of linking the Trans-
Siberian and Trans-Korean railroads and constructing a natural gas 
pipeline through the DPRK to the Republic of Korea (ROK) which could 
bring in billions of dollars in new revenue if completed. Russian 
willingness to sign economic deals with North Korea and invest in its 
economy is premised on this strategy.
    On security matters, Russia, like China, is concerned about a long-
term U.S. military presence in East Asia and continues to criticize the 
U.S. deployment of the Terminal High-Altitude Area Defense (THAAD) 
system to the ROK on the grounds that it would harm Russia's strategic 
deterrence. Russia has also joined China in calling for a ``freeze for 
freeze'' approach, in which North Korea would suspend nuclear and 
ballistic missile testing in return for a cessation of U.S.-ROK 
military exercises.
    Along with U.S. allies and partners around the world, the United 
States hopes Russia will press the DPRK to realize that the only path 
to a secure, economically prosperous future is to abandon its unlawful 
weapons programs that endanger international peace and security. Russia 
has regularly criticized U.S. military exercises and sanctions and 
called for dialogue to resolve tensions with North Korea.
    Our goal is to seek Russia's cooperation to ensure the full 
implementation of all U.N. sanctions pertaining to recent U.N. Security 
Council resolutions in response to DPRK provocations and to convince 
Russia to take positive measures to pressure the DPRK, including 
deporting the DPRK laborers currently in Russia. As the Secretary said, 
we are continuing our dialogue with Russia with regard to North Korea. 
The Secretary has discussed directly with President Putin the need for 
Russia to join China and us in the pressure campaign on North Korea.


                               __________

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
